App. 1
938 F.3d 928
United States Court of Appeals, Eighth Circuit.
FLANDREAU SANTEE SIOUX TRIBE, a
federally-recognized Indian Tribe, Plaintiff - Appellee
v.
Kristi NOEM, Governor of the State of
South Dakota, et al.,* Defendants - Appellants
No. 18-1271
|
Submitted: February 13, 2019
|
Filed: September 6, 2019
|
Rehearing and Rehearing En Banc
Denied October 24, 2019
Attorneys and Law Firms
Counsel who presented argument on behalf of the appellants was Stacy R. Hegge, of Pierre, SD. In addition
to Ms. Hegge, the following attorney(s) appeared on the
appellants’ brief; Kirsten E. Jasper, AAG of Pierre, SD.
Counsel who presented argument on behalf of the
appellee was Rebecca L. Kidder, of Rapid City, SD. In
addition to Ms. Kidder, the following attorney(s) appeared on the appellee’s brief; Steven M. Johnson, of
Sioux Falls, SD., John M. Peebles, of Sacramento, CA.,
* We grant the State’s motion to substitute Governor Kristi
Noem and Secretary of Revenue James Terwilliger, in their official capacities, in place of former Governor Dennis Daugaard and
former Secretary of Revenue Andy Gerlach.

App. 2
Rebecca L. Kidder, of Rapid City, SD., Shannon Rae
Falon, of Sioux Falls, SD., Steven John Bloxham, of
Sacramento, CA., Tim Hennessy, of Sacramento, CA.,
Francis John Nyhan, of Sacramento, CA., and Jami J.
Bishop, of Sioux Falls, SD.
Before LOKEN, COLLOTON, and KELLY, Circuit
Judges.
Opinion
LOKEN, Circuit Judge.
The Flandreau Santee Sioux Tribe is a federally
recognized tribe that owns and operates the Royal
River Casino & Hotel (the “Casino”) and the First
American Mart (the “Store”) on the Flandreau Indian
Reservation in Moody County, South Dakota. The majority of patrons at the Casino and the Store are not
members of the Tribe. The State of South Dakota (the
“State”) imposes a use tax on goods and services purchased within the State. See S.D.C.L. 10-46-2. When
the Tribe failed to remit the use tax on goods and services sold to nonmembers at the Casino and at the
Store, the State’s Department of Revenue denied the
Tribe renewals of alcoholic beverage licenses issued to
the Casino and the Store.1 The South Dakota Office of
Hearing Examiners upheld the Department’s decision.

1

See S.D.C.L. 35-2-24 (“No license under this title may be reissued to an Indian tribe operating in Indian country . . . until the
Indian tribe or enrolled tribal member remits to the Department

App. 3
The Tribe filed this action in the district court in
November 2014, alleging, inter alia, (i) that imposing
the use tax on purchases by nonmembers on reservation land is preempted by the Indian Gaming Regulatory Act (“IGRA”) because all activity under the
Royal River Casino name is “gaming activity”; (ii) that
the use tax remittance requirement infringes inherent
tribal sovereignty and violates federal common law;
and (iii) that conditioning renewal of the Tribe’s alcohol licenses on use tax remittance violates 18 U.S.C.
§ 1161. The parties stipulated that the State would
treat the alcohol licenses as valid pending a decision
on the merits.
Ruling on cross-motions for summary judgment,
the district court held that IGRA expressly preempts
imposing the use tax on nonmember purchases throughout the Casino, but does not preempt imposing the tax
on nonmember purchases of goods and services at the
Store. However, the court concluded, the State may
not condition renewal of alcohol beverage licenses on
the Tribe’s remittance of use taxes imposed on nonmember purchases at the Store. The State appeals,
arguing (i) federal law does not preempt imposition of
its use tax on nonmember purchases at the Casino
of goods and services the parties rather vaguely define
as non-gaming “amenities,”2 and (ii) the State may
of Revenue all use tax incurred by nonmembers as a result of the
operation of the licensed premises.”).
2
The parties define Casino amenities as including food and
beverage services, the Casino’s hotel and RV park, live entertainment events, and a gift shop.

App. 4
condition renewal of alcoholic beverage licenses on the
Tribe’s failure to remit validly imposed use taxes. Reviewing the grant of summary judgment de novo, and
the facts in the light most favorable to the State, we
disagree with the first contention but agree with the
second. Accordingly, we affirm in part, reverse in part,
and remand for determination of the appropriate remedy. See Casino Res. Corp. v. Harrah’s Entm’t, Inc., 243
F.3d 435, 437 (8th Cir. 2001) (standard of review).
I.

The State Tax Preemption Issue.

A. Absent a federal statute permitting it, “a State
is without power to tax reservation lands and reservation Indians.” Okla. Tax Comm’n v. Chickasaw Nation,
515 U.S. 450, 458, 115 S.Ct. 2214, 132 L.Ed.2d 400
(1995) (quotation omitted). If the legal incidence of a
state tax falls on a Tribe or its members for sales made
within Indian country, like the state motor fuels excise
tax at issue in Chickasaw Nation, the tax is categorically unenforceable, without regard to its “economic realities.” Id. at 458-60, 115 S.Ct. 2214. In this case,
however, it is undisputed that the legal incidence of
South Dakota’s use tax falls on nonmember purchasers
of goods and services at the Casino and at the Store.3
Thus, the per se rule against state taxation of reservation Indians does not apply.

3

The complementary use tax applies only to transactions not
subjected to the State’s sales tax, the incidence of which falls on
the seller. See Black Hills Truck and Trailer, Inc. v. S.D. Dep’t of
Revenue, 2016 S.D. 47, 881 N.W.2d 669, 674 (2016).

App. 5
When a State seeks to impose a nondiscriminatory
tax on the actions of nonmembers on tribal land, its
authority is not categorically limited. Instead, the Supreme Court applies a flexible analysis to determine
whether state taxation of nonmembers on Indian land
is proper, often called the “Bracker balancing test,” a
reference to the Court’s decision in White Mountain
Apache Tribe v. Bracker, 448 U.S. 136, 100 S.Ct. 2578,
65 L.Ed.2d 665 (1980). Each case “requires a particularized examination of the relevant state, federal, and
tribal interests.” Ramah Navajo School Bd., Inc. v. Bureau of Revenue of N.M., 458 U.S. 832, 838, 102 S.Ct.
3394, 73 L.Ed.2d 1174 (1982). In most cases, because
Indian tribes are dependent sovereigns, the issue turns
on whether federal legislation has preempted state
taxation of nonmember activity on Indian land, which
is “primarily an exercise in examining congressional
intent.” Cotton Petroleum Corp. v. New Mexico, 490
U.S. 163, 176, 109 S.Ct. 1698, 104 L.Ed.2d 209 (1989).
However, because of the long-recognized importance of
tribal sovereignty, “questions of pre-emption in this
area are not resolved by reference to standards of preemption that have developed in other areas of the law,
and are not controlled by ‘mechanical or absolute conceptions of state or tribal sovereignty.’ ” Cotton, 490
U.S. at 176, 109 S.Ct. 1698, quoting Bracker, 448 U.S.
at 145, 100 S.Ct. 2578. Instead, Indian tax immunity
jurisprudence relies heavily on the “significant geographical component of tribal sovereignty,” which “provides a backdrop against which the applicable treaties
and federal statutes must be read.” Wagnon v. Prairie
Band Potawatomi Nation, 546 U.S. 95, 112, 126 S.Ct.

App. 6
676, 163 L.Ed.2d 429 (2005) (cleaned up). Federal
preemption is not limited to cases in which Congress
has expressly preempted the state tax. Cotton, 490 U.S.
at 176-77, 109 S.Ct. 1698. Generally, “a State seeking
to impose a tax on a transaction between a tribe and
nonmembers must point to more than its general interest in raising revenues.” New Mexico v. Mescalero
Apache Tribe, 462 U.S. 324, 336, 103 S.Ct. 2378, 76
L.Ed.2d 611 (1983).
Applying these principles, the Supreme Court has
upheld some state taxes on nonmembers engaging in
commercial activities on Indian lands, and held that
other taxes were preempted. In Bracker, for example,
the Court held that a State’s use fuel tax on a nonmember’s logging activity on tribal land was preempted by
federal statutes and programs comprehensively encouraging and regulating logging on federal lands held
in trust for Indians. In Ramah, the Court held that a
State’s gross receipts tax on a nonmember’s activity in
building a reservation school was preempted by the
comprehensive federal regulation and financing of Indian education – the tax was based on a general desire
to increase state revenues and provided no specific offsetting benefit to Indian education. By contrast, in Cotton, the Court upheld a State’s severance tax on oil
and gas produced by nonmember lessees from wells
on reservation land because state regulation provided
substantial services to the tribe and the lessees, no economic burden fell on the tribe, federal regulation was
extensive but not exclusive, and there was no evidence
the tax affected the tribe’s ability to attract lessees.

App. 7
And in Washington v. Confederated Tribes of Colville
Indian Reservation, 447 U.S. 134, 100 S.Ct. 2069, 65
L.Ed.2d 10 (1980), the Court upheld both the tribe’s
sovereign power to tax cigarette sales to nonmembers
on the reservation, and a state excise tax on vendors
who provided cigarettes for on-reservation sales to
nonmembers. The value of Indian sales to nonmembers
was not generated by tribal activities, the Court explained, only by the exemption of such sales from state
tax; neither principles of federal Indian law nor any
federal statute preempted the State from taxing this
“artificial competitive advantage over all other businesses in a State.” Id. at 155, 100 S.Ct. 2069.
B. In this case, the federal legislation most relevant to the use tax at issue is the Indian Gaming Regulatory Act, 25 U.S.C. §§ 2701 et seq. In California v.
Cabazon Band of Mission Indians, 480 U.S. 202, 107
S.Ct. 1083, 94 L.Ed.2d 244 (1987), the Supreme Court
held that a California law limiting bingo could not be
applied to high stakes tribal bingo and card games
played predominantly by nonmembers at reservation
facilities.4 The facilities were financed and the gaming
approved by the Secretary of the Interior to promote
tribal economic development. The Court concluded
that the federal and tribal interests in promoting Indian gaming outweighed the State’s interest in preventing organized crime. 480 U.S. at 207-22, 107 S.Ct.
1083. In response, States sought federal legislation
4

The state laws at issue in Cabazon were regulatory, rather
than state taxes imposed on nonmember commercial activities on
a reservation.

App. 8
permitting state regulation of tribal gaming. Congress
passed IGRA the next year “to provide a statutory basis for the operation of gaming by Indian tribes as a
means of promoting tribal economic development, selfsufficiency, and strong tribal governments,” and to establish an “independent Federal regulatory authority
for gaming on Indian lands, [and] Federal standards
for gaming on Indian lands.” 25 U.S.C. § 2702(1), (3).
IGRA sought to balance the competing federal, state,
and tribal interests by giving each sovereign a role in
the regulatory regime.
IGRA divides gaming into three classes of increasing regulatory significance. Class I games – social
games and traditional forms of Indian gaming – are
left to the exclusive jurisdiction of the Indian tribes.
See 25 U.S.C. §§ 2703(6), 2710(a)(1). Tribes may engage
in Class II games – most forms of bingo and card games
– if they are authorized by and played in conformity
with state law, subject to federal licensing and extensive regulation by the National Indian Gaming Commission. See 25 U.S.C. §§ 2703(7), 2710(b)-(c). All other
forms of gaming are Class III games, which include casino table games and slot machines, the forms primarily involved in this case. See § 2703(8). A tribe may
conduct Class III gaming on Indian lands only pursuant to, and in compliance with, a federally approved
compact that the tribe has negotiated with the surrounding State. See § 2710(d)(1)(C); Michigan v. Bay
Mills Indian Cmty., 572 U.S. 782, 785, 134 S.Ct. 2024,
188 L.Ed.2d 1071 (2014).

App. 9
A State receiving a request to negotiate a tribalstate compact governing Class III gaming activity
“shall negotiate with the Indian tribe in good faith to
enter into such a compact.” 25 U.S.C. § 2710(d)(3)(A). A
tribal-state compact negotiated under subparagraph
(A) “may include” provisions relating to six specific
subjects, including two relating to State and tribal fees
and taxation:
(iii) the assessment by the State of such
[gaming] activities in such amounts as are
necessary to defray the costs of regulating
such activity;
(iv) taxation by the Indian tribe of such activity in amounts comparable to amounts assessed by the State for comparable activities.
25 U.S.C. § 2710(d)(3)(C). IGRA contains no provision
authorizing State taxation of Class III gaming. Thus,
it provides no legislative exception to the per se rule
against state taxation of tribes and their members.
Subsection (d)(4) made clear that no such exception
was intended:
(4) Except for any assessments that may be
agreed to under paragraph (3)(C)(iii) of this
subsection, nothing in this section shall be interpreted as conferring upon a State or any of
its political subdivisions authority to impose
any tax, fee, charge, or other assessment upon
an Indian tribe or upon any other person or
entity authorized by an Indian tribe to engage
in a class III activity.

App. 10
Here, the Tribe and the State entered into and
maintain a gaming compact governed by IGRA, which
provides the terms under which the Tribe is authorized
to conduct gaming activities on the Reservation. The
compact allows for the operation of Class III gaming
activity at the Casino and provides guidance for various facets of the Tribe’s gaming operations. It does not
address whether the State may impose its use tax on
nonmember purchases of goods and services at the Casino and the Store.
In concluding that IGRA expressly preempts the
use tax, the district court reasoned that the prohibition
on state taxation in 25 U.S.C. § 2710(d)(4) “applies to
nonmembers on the Casino floor authorized to gamble,
which includes the costs of associated activities, i.e.,
gamblers and what they spend on gambling, alcohol,
food, rooms, and other merchandise from the Casino”
(the amenities). But subsection (d)(4) is a lack of authorization, not a prohibition. Here, the State seeks to
exercise its authority under prior Supreme Court cases
to collect use taxes on nonmembers for their purchases
of amenities at the Casino, not for their Class III gaming activity that is authorized by IGRA and by the federally approved compact, which is silent on the subject
of state taxation. In Bay Mills, the Supreme Court
noted that “ ‘class III gaming activity’ ” is “what goes on
in a casino – each roll of the dice and spin of the wheel.”
572 U.S. at 792, 134 S.Ct. 2024. Thus, subsection (d)(4)
does not preempt state taxation of nonmember activity,
other than “what goes on in a casino.”

App. 11
The Tribe further argued, and the district court
agreed, that the State’s imposition of its use tax on
nonmember purchasers of amenities at the Casino is a
subject that may be included in a tribal state compact
because it falls within subsection (d)(3)(C)’s “catchall” provision, “any other subjects that are directly related to the operation of gaming activities.” 25 U.S.C.
§ 2710(d)(3)(C)(vii). The Tribe argues that the Casino’s
gift shop, hotel, RV park, food and beverage services,
and live entertainment events would not exist but for
the Casino, nor could the Casino operate without the
existence of these amenities. Therefore, the amenities
“are directly related to the operation of gaming activities,” and the use tax at issue is expressly preempted
by IGRA because it was not authorized by the Tribe’s
compact with South Dakota.
We reject this interpretation of the statute for related textual reasons. First, and most obviously, amenities such as a gift shop, hotel, and RV park are not
directly related to Class III gaming activity as defined
by the Supreme Court in Bay Mills – “what goes on in
a casino – each roll of the dice and spin of the wheel.”
“Directly related to the operation of gaming activity” is
narrower than “directly related to the operation of the
Casino.” We agree with the Tenth Circuit’s interpretation of Bay Mills: “Class III gaming activity relates
only to activities actually involved in the playing of the
game, and not activities occurring in proximity to, but
not inextricably intertwined with, the betting of chips,
the folding of a hand, or suchlike.” Navajo Nation v.
Dalley, 896 F.3d 1196, 1207 (10th Cir. 2018).

App. 12
Second, § 2710(d)(3)(C) lists subjects that a tribalstate compact authorizing Class III gaming may include.
But it does not address the legal effect of non-inclusion.
It is not surprising that the Tribe and South Dakota
did not address in their gaming compact whether the
State may impose its use tax on nonmembers for nongaming activities at the Casino and the Store. That issue was not relevant to regulating the Casino’s Class
III gaming. And even if the Tribe agreed, a provision
that the Tribe would collect and remit a non-gaming
state tax on nonmembers would risk disapproval of the
compact by the Secretary of the Interior based on “[t]he
very real concern . . . that a state may use its leverage
over Class III gaming to exact a favorable resolution
of issues unrelated to Class III gaming.” Kevin Washburn, Recurring Issues in Indian Gaming Compact
Approval, 20 Gaming L. Rev. & Econ. 388, 392 (2016).
Both parties could sensibly conclude that state taxation
of nonmembers should be left to existing federal law
governing this issue, as it may be impacted by IGRA.
Thus, the absence of a compact provision addressing
the State’s non-gaming use tax does not, standing
alone, reflect that IGRA has expressly preempted the
tax.
C. For these reasons, we conclude that the question of federal preemption in this case must be determined by conducting the analysis mandated by
Bracker to determine whether the State’s interests in
imposing the tax outweigh the relevant federal and
Tribal interests. Accord Mashantucket Pequot Tribe v.
Town of Ledyard, 722 F.3d 457, 469-71 (2d Cir. 2013);

App. 13
Barona Band of Mission Indians v. Yee, 528 F.3d 1184,
1193 (9th Cir. 2008). “Salient factors include the extent
of federal regulation and control, the regulatory and
revenue-raising interests of states and tribes, and the
provision of state or tribal services.” Felix S. Cohen,
Handbook of Federal Indian Law 707 (2012), citing
Cotton, 490 U.S. at 176-77, 186-90, 109 S.Ct. 1698;
Cent. Mach. Co. v. Ariz. State Tax Comm’n, 448 U.S.
160, 161-63, 100 S.Ct. 2592, 65 L.Ed.2d 684 (1980); and
Bracker, 448 U.S. at 150-51, 100 S.Ct. 2578. Of great
relevance are the broad policies that underlie IGRA
and the history of tribal independence in the operation
of gaming and gaming facilities. See Cotton, 490 U.S.
at 176, 109 S.Ct. 1698. “State jurisdiction is preempted
by the operation of federal law if it interferes or is incompatible with federal and tribal interests reflected
in federal law, unless the state interests at stake are
sufficient to justify the assertion of state authority.”
Mescalero Apache Tribe, 462 U.S. at 334, 103 S.Ct. 2378;
see Harrah’s Entm’t, 243 F.3d at 437.
The history of tribal sovereignty over a subject
“serves as a necessary backdrop” to the preemption
question. Cotton, 490 U.S. at 176, 109 S.Ct. 1698. As the
Supreme Court explained in Cabazon, there is a long
history of tribal resistance to state regulation of their
independent operation of gaming activities. Before
Congress enacted IGRA in 1988, Cabazon confirmed
that tribes were free from non-criminal state regulation of tribal gaming on reservations. IGRA endorsed
substantial tribal independence and protected tribes
from state interference in the operation of gaming

App. 14
activity, except for limited state regulation through
Class III gaming compacts. The stated purposes of IGRA
include “promoting tribal economic development, selfsufficiency, and strong tribal governments . . . ensur[ing]
that the Indian tribe is the primary beneficiary of the
gaming operation [and] protect[ing] such gaming as a
means of generating tribal revenue.” 25 U.S.C. § 2702.
Even if the amenities at issue are not “directly
related to the operation of gaming activities” within
the meaning of § 2710(d)(3)(C)(vii), the summary judgment record established that the amenities contribute
significantly to the economic success of the Tribe’s
Class III gaming at the Casino. The Tribe submitted
evidence that over 90% of its sales tax revenues are
generated by the 6% sales tax on transactions at the
Casino and the Store. Casino departments offering the
amenities operate at a loss, suggesting that goods and
services are sold below cost to attract patrons and encourage gaming. The Tribe provided evidence that increases in patronage at one amenity is directly tied to
increases in gaming activity itself. The Tribe also submitted evidence of the Casino’s significance in promoting tribal economic development and self-sufficiency.
Of the net revenues generated from the Casino and the
Store, 40% is distributed by individual per capita payments; 35% of the remainder goes toward Tribal economic development, 15% toward Tribal government
operations, 5% into a minors trust fund, 4% into a community assistance fund, and 1% into a local government revenue sharing fund.

App. 15
The State’s taxation of the Casino amenities
would raise their cost to nonmember patrons or reduce
tribal revenues from these sales. Even if gaming was
not thereby reduced, the impact would be contrary to
IGRA’s broad policies of increasing tribal revenues
through gaming and ensuring that tribes are the primary beneficiary of their gaming operations to promote economic development, self-sufficiency, and strong
tribal governments. The State argues that any negative impact on the Tribe’s finances is insufficient to
preempt the tax, citing Cotton and Colville. We disagree.
In Cotton, the trial court found that the State regulated aspects of the on-reservation oil and gas development at issue and provided substantial services to
the tribe and its lessee, and that “no economic burden
falls on the tribe by virtue of the state taxes.” 490 U.S.
at 185-87, 109 S.Ct. 1698 (cleaned up). The Court concluded that this indirect impairment of the federal policy favoring on-reservation oil and gas production “is
simply too indirect and too insubstantial to support
[the] claim of pre-emption.” Id. at 187, 109 S.Ct. 1698.
Similarly, in Colville, no federally regulated tribal activity was involved, and the only benefit provided nonmembers by the tribe was a state tax exemption for
their on-reservation cigarettes purchases. 447 U.S. at
154-59, 100 S.Ct. 2069. Here, nonmembers benefit from
the Casino’s federally regulated gaming activities operated by the Tribe, and from amenities provided by
tribal facilities such as the hotel, RV park, and gift
shop.

App. 16
We conclude the Tribe’s on-reservation Class III
gaming activity is analogous to the nonmember logging activity on tribal land at issue in Bracker, and to
the nonmember activity in building a reservation
school at issue in Ramah. In both cases, the Court held
that state taxes whose economic burden fell on the
tribes were preempted by federal statutes and programs comprehensively encouraging and regulating
the nonmember activities, where the States did not
have a “specific, legitimate regulatory interest” in the
activity taxed, Ramah, 458 U.S. at 843, 102 S.Ct. 3394,
only a “generalized interest in raising revenue” that is
insufficient to permit “intrusion into the federal regulatory scheme,” Bracker, 448 U.S. at 150, 100 S.Ct.
2578. The State’s interest in raising revenues to provide government services throughout South Dakota
does not outweigh the federal and tribal interests in
Class III gaming reflected in IGRA and the history of
tribal independence in gaming recognized in Cabazon.
As in Bracker, “this is not a case in which the State
seeks to assess taxes in return for governmental functions it performs for those on whom the taxes fall.” 448
U.S. at 150, 100 S.Ct. 2578. Accordingly, we affirm the
district court’s conclusion that imposition of the South
Dakota use tax on nonmember purchases of amenities
at the Casino is preempted by federal law.
II.

The Conditional Liquor Licensing Issue.

The district court held that the South Dakota use
tax may be imposed on nonmember purchases at the
Store, and that the State “can require the Tribe to

App. 17
collect and remit such tax.” See Okla. Tax Comm’n v.
Potawatomi Indian Tribe, 498 U.S. 505, 513, 111 S.Ct.
905, 112 L.Ed.2d 1112 (1991) (“the doctrine of tribal
sovereign immunity does not prevent a State from requiring Indian retailers doing business on tribal reservations to collect a state-imposed . . . tax on their sales
to nonmembers”), citing Moe v. Confederated Salish
and Kootenai Tribes, 425 U.S. 463, 96 S.Ct. 1634, 48
L.Ed.2d 96 (1976), and Colville, 447 U.S. at 134, 100
S.Ct. 2069. The Tribe did not appeal those rulings.
When the Tribe failed to remit the use tax on
goods and services sold to nonmembers, the State denied the Tribe renewals of alcoholic beverage licenses
issued to the Casino and the Store because the use tax
was not paid. See S.D.C.L § 35-2-24. This issue is not
moot as to use taxes validly imposed on nonmember
purchases at the Store. The district court held that the
“imposition of a condition that the tribe remit all outstanding taxes on the renewal of an alcohol license”
was not “reasonably necessary” to the assessment or
collection of lawful state taxes. The court’s Amended
Judgment precluded the State from enforcing § 35-224 for the collection and remittance of a use tax on nonmember consumer purchases. The State appeals that
ruling.
“Congress has divested the Indians of any inherent power to regulate” the use and distribution of alcoholic beverages in Indian country. Rice v. Rehner, 463
U.S. 713, 724, 103 S.Ct. 3291, 77 L.Ed.2d 961 (1983). In
enacting 18 U.S.C. § 1161, “Congress contemplated
that its absolute but not exclusive power to regulate

App. 18
Indian liquor transactions would be delegated to the
tribes themselves, and to the States.” Id. at 728, 103
S.Ct. 3291. Accordingly, the Court held in Rehner that
a State may require a federally licensed Indian trader
operating a general store on a reservation to obtain a
state license to sell liquor for off-premises consumption. The State argues that conditioning liquor license
renewals is well within its traditional police power as
extended to the regulation of on-reservation liquor
transactions by § 1161 and Rehner.
Like the district court, we conclude the issue is not
that simple. Section 1161 provides the State with authority to regulate liquor on the reservation, just as the
district court concluded it has authority to tax nonmember purchases of goods and services at the Store.
But the question is whether the State’s remedy for the
Tribe’s failure to collect and remit valid use taxes –
non-renewal of its liquor licenses – is preempted by
federal law. In resolving this issue, the Supreme Court
applies the Bracker balancing test. See Dep’t of Taxation & Fin. of N.Y. v. Milhelm Attea & Bros., Inc., 512
U.S. 61, 73, 114 S.Ct. 2028, 129 L.Ed.2d 52 (1994), citing Cotton, 490 U.S. at 176, 109 S.Ct. 1698.
In Potawatomi, the Supreme Court held that
tribal sovereignty barred Oklahoma from suing the
tribe to enforce its valid tax on reservation cigarette
sales to nonmembers, which would be “the most efficient remedy,” but tribal sovereignty “does not excuse
a tribe from all obligations to assist in the collection of
validly imposed state sales taxes.” 498 U.S. at 512, 514,
111 S.Ct. 905. The Court suggested five alternative

App. 19
remedies: (1) imposing liability on individual agents of
tribes for failing to collect the taxes; (2) seizing untaxed goods in shipment to reservations; (3) collecting
taxes from wholesalers off reservations; (4) entering
into collection agreements with tribes; and (5) seeking
congressional legislation. 498 U.S. at 514, 111 S.Ct.
905.
In Colville, tribes challenged detailed recordkeeping requirements imposed by the State to separate
on-reservation cigarette sales to nonmembers, which
were subject to state excise tax, from nontaxable sales
to tribal members; the Court held the requirements
“valid in toto” because “the Tribes have failed to demonstrate that the State’s recordkeeping requirements for
exempt sales are not reasonably necessary as a means
of preventing fraudulent transactions.” 447 U.S. at 160,
100 S.Ct. 2069. In a subsequent case, wholesalers federally licensed to sell cigarettes to reservation Indians facially challenged New York’s “probable demand”
mechanism imposing a quota on their tax-exempt cigarette sales; the Court upheld the State restrictions on
reservation retailers as “reasonably necessary” to curb
the illicit flow of tax-free cigarettes. Milhelm Attea, 512
U.S. at 75-76, 114 S.Ct. 2028. The Court has not applied
its “reasonably necessary” standard in other contexts.
Here, the district court concluded that the State’s
licensing renewal condition was not reasonably necessary because “conditioning an alcohol license on taxes
entirely unrelated to alcohol and its potential for substantial impact does not further the State’s recognized
interest” in § 1161 and in Rehner. But that is not the

App. 20
state interest at issue. The alternatives the Court suggested in Potawatomi are alternative remedies to “produce the [tax] revenues to which [the States] are
entitled.” 498 U.S. at 514, 111 S.Ct. 905. That the remedy may impose a burden that goes beyond collection
of the tax does not mean it is not reasonably necessary
to the State’s interest in collecting the tax. Rather,
the issue to be addressed under Bracker balancing is
whether the remedy “will unduly interfere with Indian
trading,” or, in this case, with the Tribe’s Class III gaming activity. Milhelm Attea, 512 U.S. at 76, 114 S.Ct.
2028. On its face, the State’s remedy seems no more
burdensome than some alternatives suggested in Potawatomi – imposing liability on tribal agents who fail to
collect the taxes and seizing untaxed goods in shipment to the reservation. In either case, the tribal retailer is unable to continue its reservation business
until it complies with the valid obligation to collect and
remit State tax on nonmember purchases.
In the district court and on appeal, the Tribe did
not address this issue, arguing only that SDCL § 35-224 “exceeds the authority delegated to the State [by 18
U.S.C. § 1161] because the tax remittance condition is
not reasonably related to the State’s interests in controlling the impacts of alcohol within its borders.” As
that assertion, even if true, does not address the “reasonably necessary” issue under Bracker, the Tribe has
failed to meet its burden to demonstrate that the State
alcohol license requirement is not reasonably necessary to further its interest in collecting valid state taxes.
Colville, 447 U.S. at 160, 100 S.Ct. 2069. Accordingly,

App. 21
Paragraph 3 of the district court’s Amended Judgment
declaring that the State “cannot condition renewal of
any alcoholic beverage license issued to the Tribe on
the collection and remittance of a use tax on nonmember consumer purchases” is reversed.
III.

Conclusion.

For the foregoing reasons, the Amended Judgment
of the district court is affirmed in part and reversed in
part. The case is remanded for further proceedings not
inconsistent with this opinion.

COLLOTON, Circuit Judge, concurring in part and
dissenting in part.
The Indian Gaming Regulatory Act does not expressly preempt South Dakota’s use tax on purchases
of non-gaming amenities at the Royal River Casino &
Hotel by those who are not members of the Flandreau
Santee Sioux Tribe. On this much, I agree with the
court. The court proceeds, however, to affirm the district court’s preemption ruling on an alternative ground
– namely, that “the State’s interests in imposing the
tax” do not “outweigh the relevant federal and Tribal
interests.” I conclude that federal law does not preempt the South Dakota use tax on the purchase of nongaming amenities by nonmembers, so I would reverse
the judgment.

App. 22
The Supreme Court last addressed the subject of
state taxation of nonmembers for activity on an Indian
reservation thirty years ago. The Court explained that
“questions of pre-emption in this area are not resolved
by reference to standards of pre-emption that have developed in other areas of the law.” Cotton Petroleum
Corp. v. New Mexico, 490 U.S. 163, 176, 109 S.Ct. 1698,
104 L.Ed.2d 209 (1989). What governs instead is “a
flexible preemption analysis sensitive to the particular
facts and legislation involved.” Id.
The court here concludes that South Dakota’s use
tax on nonmember purchases of amenities is preempted
because the case is analogous to White Mountain Apache
Tribe v. Bracker, 448 U.S. 136, 100 S.Ct. 2578, 65
L.Ed.2d 665 (1980), and Ramah Navajo School Board,
Inc. v. Bureau of Revenue of New Mexico, 458 U.S. 832,
102 S.Ct. 3394, 73 L.Ed.2d 1174 (1982). Those decisions held that particular state taxes on nonmember
activities undertaken on tribal land were preempted.
The analogy to this case, however, is wanting.
Bracker involved a motor carrier license tax and
use fuel tax that a State applied to a non-Indian logging company that operated on an Indian reservation.
The Tribe had agreed to reimburse the company for
any tax incurred as a result of its on-reservation business activity, so it was “undisputed that the economic
burden of the asserted taxes [would] ultimately fall on
the Tribe.” 448 U.S. at 151, 100 S.Ct. 2578. The Supreme Court held that the state taxes were preempted.
The opinion cited a “pervasive” and “comprehensive”
federal regulatory scheme governing tribal timber that

App. 23
left “no room for these taxes,” as well as a failure of the
State to “identify any regulatory function or service
performed by the State that would justify the assessment of taxes.” Id. at 148-49, 100 S.Ct. 2578.
Ramah concerned a state tax imposed on gross receipts that a non-Indian construction company received from a tribal school board for the construction
of a school on the reservation. Under standard industry practice, the school board reimbursed the construction company for all taxes due, so the ultimate burden
of the gross receipts tax fell on the tribal organization.
458 U.S. at 835, 844, 102 S.Ct. 3394. The Supreme
Court found the case indistinguishable from Bracker
and declared the state tax preempted. The Court cited
a “detailed regulatory scheme governing the construction of autonomous Indian educational facilities [that
was] at least as comprehensive as” the scheme governing timber in Bracker, id. at 841, 102 S.Ct. 3394, and
emphasized that the State did “not seek to assess its
tax in return for the governmental functions it provides to those who must bear the burden of paying
[the] tax.” Id. at 843, 102 S.Ct. 3394.
The Court’s next decision, however, cabined Bracker
and Ramah. Cotton Petroleum considered a state severance tax on the production of oil and gas by nonIndian lessees of wells located on a reservation. In
urging federal preemption of the state tax, the Tribe
cited the Indian Mineral Leasing Act of 1938 and a
congressional purpose to provide tribes with a profitable source of revenue from oil and gas leases. But the
Court refused to find preemption of state taxation

App. 24
based on the indirect burdens that the state taxes imposed on this broad congressional purpose. Without
“some special factor such as those present” in Bracker
and Ramah, the indirect burdens were insufficient
to justify invalidating the state taxes. 490 U.S. at 187,
109 S.Ct. 1698. The Court expressed concern that a
preemption ruling would mean a return to the “thoroughly repudiated doctrine” of intergovernmental tax
immunity. Id.
In distinguishing Bracker and Ramah, the Court
in Cotton Petroleum highlighted that the prior cases
both “involved complete abdication or noninvolvement
of the State in the on-reservation activity.” Id. at 185,
109 S.Ct. 1698. Bracker and Ramah also involved
“exclusive” federal and tribal regulation of the nonmember activity, whereas the federal and tribal regulations in Cotton Petroleum were “extensive,” but not
“exclusive.” Id. at 186, 109 S.Ct. 1698. And Cotton
Petroleum did not involve “an unusually large state
tax” that “imposed a substantial burden on the Tribe.”
Id.
The situation here does not share the “special”
characteristics that led the Court to find preemption in
Bracker and Ramah. This is not a case of “complete
abdication or noninvolvement of the State in the onreservation activity.” The State provides a range of services for the Casino: law enforcement operations, R.
Doc. 80-7, at 34; R. Doc. 119-11, at 7-13; R. Doc. 125-23,
at 4-5; roads that facilitate the Casino’s fifty-mile shuttle service for patrons, R. Doc. 80-7, at 16, 21, 28-29; R.
Doc. 119-15, at 50; job training for a Casino employee

App. 25
from the State’s Department of Human Services, R.
Doc. 81-14, at 3-5; and inspection of Casino equipment
by the State Fire Marshal, R. Doc. 119-21, at 7-8. Nor
is federal and tribal regulation of the amenities “exclusive.” The State issues an alcohol license to the Casino
and regulates the service of alcoholic beverages, R. Doc.
32, at 14 (¶ 56); R. Doc. 80-10, at 13-14; the State’s
Department of Health licenses vendors who sell food
products to the Casino, R. Doc. 80-10, at 4, 15-16; R.
Doc. 82-4, at 4-6; and the Tribe purchases water from
the City of Flandreau, whose water system operators
are certified by the State’s Department of Environment and Natural Resources, R. Doc. 80-2, at 8-9; R.
Doc. 132-21, at 5-7. Although the state tax revenue derived from the sales of amenities would not equal the
cost of the state services provided on the reservation,
“[n]either Bracker, nor Ramah . . . imposes such a proportionality requirement on the States.” Cotton Petroleum, 490 U.S. at 185, 109 S.Ct. 1698.
Bracker and Ramah emphasized the existence of a
comprehensive federal regulatory scheme of the activity taxed – logging operations and the construction of
Indian schools, respectively. The Bureau of Indian Affairs exercised authority over the details of logging operations and school construction, and thereby placed
administrative and economic burdens on both the Tribes
and the non-Indian companies enlisted to help with
the regulated activities. The federal regulation was so
pervasive as to preclude an additional burden that
state taxes would impose. Here, the absence of a comprehensive federal regulatory scheme that encompasses

App. 26
the provision of non-gaming amenities distinguishes
Bracker and Ramah and leaves room for the State to
apply its use tax.
The court concludes that the potential negative
impact of the state tax on the Tribe’s finances is sufficient reason to declare the state tax preempted. Even
if gaming is not reduced, the court believes, a reduction
in tribal revenues from sales of non-gaming amenities
would be contrary to the “broad policies” of the Indian
Gaming Regulatory Act. To my eye, that submission is
akin to the argument rejected in Cotton Petroleum,
where the Court declined to accept that “[a]ny adverse
effect on the Tribe’s finances caused by the taxation of
a private party contracting with the Tribe would be
ground to strike the state tax.” Id. at 187, 109 S.Ct.
1698. Even though it was “reasonable to infer that the
[state] taxes have at least a marginal effect on the demand for on-reservation leases, the value to the Tribe
of those leases, and the ability of the Tribe to increase
its tax rate,” those indirect effects on a “broad” congressional purpose were insufficient to strike the state
taxes without “more explicit guidance from Congress.”
Id. at 186-87, 109 S.Ct. 1698. So too here. As in Cotton
Petroleum, the “primary burden of the state taxation falls on the non-Indian taxpayers,” id. at 187, 109
S.Ct. 1698 n.18, and the indirect effects of state taxation on tribal finances do not justify a finding of
preemption.
For these reasons, I would reverse the judgment of
the district court declaring preemption of the state use
tax on non-gaming amenities. I concur in the court’s

App. 27
reversal of the district court’s judgment concerning
the State’s authority to condition renewal of the Tribe’s
alcoholic beverage license on the Tribe’s remittance of
use taxes that it was required to collect.

App. 28
269 F.Supp.3d 910
United States District Court, D.
South Dakota, Southern Division.
FLANDREAU SANTEE SIOUX TRIBE,
a federally-recognized Indian Tribe, Plaintiff,
v.
Andy GERLACH, Secretary of the State of South
Dakota Department of Revenue; and Dennis
Daugaard, Governor of the State of South Dakota,
Defendants.
CIV 14–4171
|
Signed 09/15/2017
Attorneys and Law Firms
Ronald A. Parsons, Jr., Shannon R. Falon, Steven M.
Johnson, Johnson, Janklow, Abdallah, Reiter & Parsons LLP, Sioux Falls, SD, John Nyhan, John M. Peebles, Pro Hac Vice, Steven J. Bloxham, Pro Hac Vice,
Tim Hennessy, Pro Hac Vice, Fredericks Peebles &
Morgan LLP, Sacramento, CA, Rebecca L. Kidder,
Fredericks, Peebles & Morgan LLP, Rapid City, SD, for
Plaintiff.
Kirsten E. Jasper, Matthew E. Naasz, Attorney General of South Dakota, Pierre, SD, Stacy R. Hegge, Madison, SD, for Defendants.

App. 29
MEMORANDUM OPINION AND ORDER
ON PARTIES’ MOTIONS FOR SUMMARY
JUDGMENT, DOCS. 78 & 115
Lawrence L. Piersol, United States District Judge
Pending before the Court is the Flandreau Santee
Sioux Tribe’s (“the Tribe”) Motion for Summary Judgment on Claims for Relief One, Three, and Four of the
First Amended Complaint. Doc. 115. In its motion, the
Tribe asserts that the State of South Dakota’s (“the
State”) imposition of a state use tax on nonmember
purchases of goods and services throughout the Royal
River enterprise is unlawful under the Indian Gaming
Regulation Act (“IGRA”) and interferes with and frustrates federal and tribal interests.
Also before the Court is Defendants’ Motion for
Summary Judgment on all claims in the First
Amended Complaint. Doc. 78. In their motion, the Defendants argue that the imposition of a state use tax
on nonmember consumers’ purchases of goods and services throughout the Royal River enterprise is not expressly or impliedly preempted by IGRA nor does it
interfere with or frustrate federal and tribal interests.
Further, Defendants assert that the State may permissibly condition reissuance of a liquor license to the
Tribe on the collection and remittance by the Tribe of
the nonmember consumers’ use tax liability.
The Court has considered all filings and for the following reasons, the Tribe’s motion is granted in part
and denied in part. The Defendants’ motion is similarly granted in part and denied in part.

App. 30
FACTUAL BACKGROUND
The Tribe is a federally-recognized Indian tribe located in Flandreau, South Dakota. The Tribe owns and
operates the Royal River Casino & Hotel (“the Casino”)
and the First American Mart (“the Store”) (collectively,
the “Licensed Premises”) on the Flandreau Indian
Reservation.1 These two businesses operate as a single
business enterprise under the Royal River name and,
irrespective of patrons’ tribal or residential status, provide a wide variety of goods and services, including:
overnight hotel stays, recreational vehicle accommodation, food and beverage services (alcoholic and nonalcoholic), gifts and sundries, tobacco products, fuel,
services for catering, meetings, conferences, and special events, live entertainment, snacks, video arcade
games, transportation services, health and fitness services, and gambling.2 As a unitary business, the entire
enterprise is overseen by the Tribe’s elected governing
body, the Flandreau Santee Sioux Executive Committee. The Licensed Premises’ patron base is approximately 60% South Dakota residents. Revenue,
including that from gambling, hotel stays, food, the bar,
the gift shop, the RV park, and the Store, is calculated
in the aggregate as “net revenues.” Of that sum, 35% is
distributed toward tribal economic development, 40%
1

The Casino and the Store are located in separate buildings.
The specific departments and sub-departments within the
Royal River business enterprise include: Slots, Table Games,
Food and Beverage (Group Sales and Events), Hotel, Controller
(Gift Shop), Human Resources, Porter, Security, Surveillance,
Maintenance, Marketing, Players Club, First American Mart,
and the Compliance Office.
2

App. 31
via individual per capita payments to tribal members,
5% into a minors’ trust fund, 15% toward tribal government operations, 4% into a community assistance
fund, and 1% into a local government revenue sharing
fund. The Tribe also imposes a 6% sales tax. Over 90%
of the Tribe’s sales tax revenue is generated by transactions at the Licensed Premises.
Pursuant to IGRA, the Tribe and the State have in
place a Tribal-State gaming compact (“the Compact”),
which controls the Tribe’s gaming operations at the
Casino. The Compact allows the Casino to participate
in Class III gaming.3 The Compact is silent in regard
to the State’s authority to apply its alcohol regulatory
laws, the State’s imposition of its use tax on nonmember4 activity at the Casino, and the State’s requirement
that the Tribe collect and remit the use taxes from nonmember activities or purchases. It is undisputed that
the Tribe sold the above-listed goods and services to
3

Class III gaming is defined by IGRA as “all forms of gaming
that are not class I gaming and class II gaming.” 25 U.S.C.
§ 2703(8). The definition includes games such as: “slot machines,
roulette, craps, pari-mutuel wagering, lotteries, and banked card
games (which are games played against the ‘house’ rather than
other players) such as blackjack and baccarat.” STEPHEN L. PEVAR, The Rights of Indians and Tribes 277 (Oxford University
Press, 4th ed. 2012). As an incentive to partake in gaming, the
Casino offers a Royal Rewards Club program. Royal Rewards
Club members earn points when they play Slots and other live
card games, which can then be redeemed for a wide variety of services or for cash. The only way to earn Royal Rewards Club points
is through game play. Purchases of items at the hotel, RV park,
the Store, bar, restaurant, or gift shop, do not earn members
points.
4
Individuals who are not members of the Tribe.

App. 32
nonmembers at the Casino. It is also undisputed that
the Tribe has not remitted to the State the relevant use
taxes on nonmember sales.
The State has issued three alcoholic beverage licenses to the Tribe—one for the casino, one for the
store, and one for the Royal River Family Entertainment Center (“Bowling Center”).5 These licenses, however, are conditioned on the Tribe’s remittance of the
State use tax pursuant to S.D.C.L. § 35–2–24. The
South Dakota statute does not differentiate between
alcohol tax and use tax on other goods and services. Id.
In 2009 and 2010, the Tribe sought from the State a
renewal of its three alcohol licenses. Based on S.D.C.L.
§ 35–2–24, both requests were denied by the State as
the statute directs that licenses are not to be reissued
until the Tribe remits use taxes incurred by nonmembers.6
As a result, the Tribe, pursuant to S.D.C.L. § 1–
26–16, requested a hearing before the South Dakota
Office of Hearing Examiners to review the State’s alcohol license denial. At the hearing, the Hearing Examiner concluded that all nonmember purchases at the
Casino are subject to the use tax scheme, that the Tribe
failed to remit the use taxes, and, therefore, the Tribe
5

The Royal River Family Entertainment Center (“Bowling
Center”) is no longer in operation, having closed in July of 2015.
6
The Tribe applied for a license renewal each year since the
initial denial. Each request has been denied by the State, but the
Tribe is enabled to continue operations under the original licenses
until a final administrative decision is issued pursuant to
S.D.C.L. § 1–26–28.

App. 33
was not entitled to alcohol license renewal. Prior to the
Hearing Examiner’s decision becoming final, the Tribe
filed this action in federal court on November 18, 2014.
The Tribe simultaneously moved the Court for preliminary injunction enjoining state action pursuant to the
Hearing Examiner’s decision. The Tribe and State ultimately made the motion for preliminary injunction
moot by entering into a stipulation whereby the State
recognized the three alcohol licenses’ continuing validity pending a decision on the merits in this case. The
Tribe did not appeal the Hearing Examiner’s decision
to South Dakota state court.
Specific to this federal action, the Tribe alleges
that the State lacks authority to impose its use tax
scheme on reservation land against nonmember patrons of the Licensed Premises. In its Complaint, the
Tribe alleges that IGRA preempts the field of taxation
thereby barring the State’s imposition. To that end, the
Tribe argues that all activity engaged in under the
Royal River Casino name is “gaming activity” untaxable by the State by virtue of IGRA (Claims for Relief
One, Two, and Six). Outside of IGRA, the tribe maintains that the use tax and remittance requirements
are preempted by the Indian Commerce Clause of the
Federal Constitution and federal common law and that
they infringe on inherent tribal sovereignty (Claims
for Relief Three and Five); that the State’s tax imposition is unlawfully discriminatory as applied to the
Tribe (Claim for Relief Four); that, as a predicate to
funds contained in an escrow account pursuant to a
1994 Deposit Agreement between the Tribe and the

App. 34
State being disbursed to the Tribe, the State is without
power to impose its taxation scheme on the Tribe’s Casino (Claim for Relief Seven);7 and that conditioning
the alcohol licenses on the S.D.C.L. § 35–2–24 tax remittance requirement violates 18 U.S.C. § 1161 (Claim
for Relief Eight).
The Tribe has moved the Court for summary judgment pursuant to Fed. R. Civ. P. 56(a) as to Claims for
Relief One, Three, and Four. The Defendants have
moved the Court for summary judgment on all Claims

7

On April 14, 1994, the Tribe initiated an action seeking declaratory and injunctive relief against then South Dakota Governor Walter D. Miller and then Secretary of Revenue of South
Dakota Ronald J. Schreiner. Flandreau Santee Sioux Tribe v.
South Dakota, Civ. No. 94–4086 (D.S.D.). There, the Tribe alleged
that the State lacked jurisdiction to impose its sales and use taxes
on tribal sales of personal property to nonmembers when the sales
occur on Indian trust lands. The case was consolidated with a similar case that raised taxation issues. Sisseton–Wahpeton Sioux
Tribe v. South Dakota, No. CIV 93–1033 (D.S.D.) (“The State contends that the Tribe is subject to the sales and use tax laws and
liquor licensing laws of the State of South Dakota as they pertain
to the Tribe’s transactions with non-Indians and non-members at
the Tribe’s casino, which contention the Tribe disputes. . . . The
State further contends that the Tribe has incurred and will continue to incur sales tax liability through its sales to non-Indians
and nonmembers[.]”). Related to that litigation, the Tribe entered
into the Deposit Agreement wherein the Tribe agreed to deposit
the aggregate amount of disputed tax liability into an escrow account pending final resolution of the case. The 1994 action was
dismissed without prejudice on April 30, 1998. Around that time,
the Tribe ceased making payments into the escrow account. The
total amount contained in the escrow account is currently
$400,000.

App. 35
for Relief. For reasons explained herein, both motions
are granted in part and denied in part.
LEGAL STANDARD
Pursuant to Rule 56(a) of the Federal Rules of
Civil Procedure, summary judgment is proper “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” FED. R. CIV. P. 56(a). “A party
asserting that a fact cannot be . . . disputed must support the assertion” either by “citing to particular parts
of materials in the record,” or by “showing that the
materials cited do not establish the . . . presence of a
genuine dispute[.]” FED. R. CIV. P. 56(c)(1)(A)-(B). “The
movant can also establish the absence of a disputed
material fact by showing ‘that an adverse party cannot produce admissible evidence to support the fact.’ ”
Jensen v. Hy–Vee Corp., 2011 WL 1832997, at *1 (D.S.D.
May 13, 2011) (quoting FED. R. CIV. P. 56(c)(1)(B)).
In a motion for summary judgment, the moving
party bears the initial burden of establishing the absence of a genuine issue of material fact. Celotex Corp.
v. Catrett, 477 U.S. 317, 323, 106 S.Ct. 2548, 91 L.Ed.2d
265 (1986) (internal quotations omitted). Once this burden is met, the burden then shifts to the non-moving
party to demonstrate “that a fact . . . is genuinely disputed” either by “citing to particular parts of materials in the record,” or by “showing that the materials
cited do not establish the absence . . . of a genuine dispute.” FED. R. CIV. P. 56(C)(1)(A)-(B). “For purposes of

App. 36
summary judgment, the facts, and inferences drawn
from those facts, are ‘viewed in the light most favorable
to the party opposing the motion.’ ” Jensen, 2011 WL
1832997, at *2 (quoting Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 586, 106 S.Ct. 1348,
89 L.Ed.2d 538 (1986)).
DISCUSSION
I.

Preemption of the Tax Itself

The Tribe asserts that the imposition of the State
use tax on nonmember consumers of the Licensed
Premises is preempted under IGRA. Further, to the
extent it is not otherwise preempted by IGRA itself,
the Tribe argues that the tax is incompatible with
Federal and Tribal interests in protecting tribal selfgovernment and is therefore preempted by Federal
Indian law in general as it infringes on tribal sovereignty. “State jurisdiction is preempted by the operation of federal law if it interferes or is incompatible
with federal and tribal interests reflected in federal
law, unless the state interests at stake are sufficient to
justify the assertion of state authority.” Casino Res.
Corp. v. Harrah’s Entm’t, Inc., 243 F.3d 435, 437 (8th
Cir. 2001) (citing New Mexico v. Mescalero Apache
Tribe, 462 U.S. 324, 334, 103 S.Ct. 2378, 76 L.Ed.2d 611
(1983)). “The traditional notions of tribal sovereignty
and the recognition and encouragement of this sovereignty in Congressional Acts promoting tribal independence and economic development inform the preemption analysis.” Ramah Navajo Sch. Bd., Inc. v.

App. 37
Bureau of Revenue, 458 U.S. 832, 846, 102 S.Ct. 3394,
73 L.Ed.2d 1174 (1982).
A state’s regulatory power is at its lowest and generally inapplicable when applied to on-reservation conduct of tribal members. White Mountain Apache Tribe
v. Bracker, 448 U.S. 136, 144, 100 S.Ct. 2578, 65
L.Ed.2d 665 (1980) (citing Moe v. Salish & Kootenai
Tribes, 425 U.S. 463, 480–81, 96 S.Ct. 1634, 48 L.Ed.2d
96 (1976) and McClanahan v. Ariz. Tax Comm’n, 411
U.S. 164, 93 S.Ct. 1257, 36 L.Ed.2d 129 (1973)). The
question of the lawfulness of state regulatory authority
becomes more difficult where, as here, a state asserts
authority over the conduct of non-Indians on the reservation. Id.
In such cases we have examined the language
of the relevant federal treaties and statutes in
terms of both the broad policies that underlie
them and the notions of sovereignty that have
developed from historical traditions of tribal
independence. This inquiry is not dependent
on mechanical or absolute conceptions of state
or tribal sovereignty, but has called for a particularized inquiry into the nature of the
state, federal, and tribal interests at stake, an
inquiry designed to determine whether, in the
specific context, the exercise of state authority
would violate federal law.
Id. at 144–45.

App. 38
A.

IGRA

For over forty years, Indian gaming has served as
a source for commercial revenue for tribes. See KENNETH BOBROFF, ET AL., COHEN’S HANDBOOK
OF FEDERAL INDIAN LAW 875 (Nell Jessup Newton, Lexis Nexis 2015) (1941). The Supreme Court’s
1987 decision in California v. Cabazon Band of Mission
Indians, in holding that the state of California could
not impose its gaming regulations on a tribal gaming
operation because they were preempted by tribal and
federal interests, opened the door to numerous public
policy questions regarding what is today a multibillion dollar industry. 480 U.S. 202, 107 S.Ct. 1083, 94
L.Ed.2d 244 (1987). See BOBROFF, at 875–76. Thus, in
1988, Congress enacted IGRA.
IGRA was Congress’ compromise solution to the
difficult questions involving Indian gaming. The
Act was passed in order to prove ‘a statutory basis
for the operation of gaming by Indian tribes as a
means of promoting tribal economic development,
self-sufficiency, and strong tribal governments’
and ‘to shield [tribal gaming] from organized
crime and other corrupting influences to ensure
that the Indian tribe is the primary beneficiary of
the gaming operation.’ 25 U.S.C. § 2702(1) and (2).
IGRA is an example of ‘cooperative federalism’ in
that it seeks to balance the competing sovereign
interests of the federal government, state governments, and Indian Tribes, by giving each a role in
the regulatory scheme.

App. 39
Artichoke Joe’s California Grand Casino v. Norton, 353
F.3d 712, 715 (9th Cir. 2003) (internal quotes and citations omitted).
Under IGRA, three conditions must be satisfied
before a tribe operates a class III gaming facility: (1)
authorization of such gaming by the governing body of
the Indian Tribe and the Chair of the National Indian
Gaming Commission (“NIGC”); (2) authorization of
such gaming by the state in which the reservation is
located; and (3) the existence of a gaming compact between the tribe and the state approved by the Secretary of the Interior. See 25 U.S.C. § 2710(d)(1)). The Act
further delineates proper subject matter of a compact.
25 U.S.C. § 2710(d)(3)(C)(i)-(vii).8 The principal subject

8

25 U.S.C. § 2710(d)(3)(C)(i)–(vii) reads, in whole,
(C) Any Tribal–State compact negotiated under subparagraph (A) may include provisions relating to—
(i) the application of the criminal and civil laws
and regulations of the Indian tribe or the state
that are directly related to, and necessary for, the
licensing and regulation of such activity;
(ii) the allocation of criminal and civil jurisdiction between the State and the Indian tribe necessary for the enforcement of such laws and
regulations;
(iii) the assessment by the State of such activities in such amounts as are necessary to defray
the costs of regulating such activity;
(iv) taxation by the Indian tribe of such activity
in amounts comparable to amounts assessed by
the State for comparable activities;
(v) remedies for breach of contract;

App. 40
matter provision here is subsection (vii), which allows
for a compact to contain provisions for “any other subjects that are directly related to the operation of gaming activities.” 25 U.S.C. § 2710(d)(3)(C)(vii). IGRA does
not mention the sale of goods and services to nonmember casino patrons, alcohol sales, or a correlating taxation. As stated before by this Court in its Memorandum
Opinion and Order on Defendants’ Motion for Judgment on the Pleadings, that fact alone weighs in the
Tribe’s favor. Doc. 59 at 16. The basic Indian law canons of construction require that statutes be liberally
construed in favor of the Tribes and that all ambiguities are to be resolved in their favor. See Montana v.
Blackfeet Tribe, 471 U.S. 759, 767–68, 105 S.Ct. 2399,
85 L.Ed.2d 753 (1985). Further, tribal property rights
and sovereignty are preserved unless Congress’s intent to the contrary is clear and unambiguous. See
Minnesota v. Mille Lacs Band of Chippewa Indians,
526 U.S. 172, 202, 119 S.Ct. 1187, 143 L.Ed.2d 270
(1999).
The Compact that exists between the Tribe and
the State is also silent as to the sale of goods and services to nonmember consumers on the Licensed Premises. The Tribe asserts, however, that the goods and
services offered on the Licensed Premises are within
the contemplation of subsection (vii) as “subjects that
(vi) standards for the operation of such activity
and maintenance of the gaming facility, including
licensing; and
(vii) any other subjects that are directly related
to the operation of gaming activities.

App. 41
are directly related to the operation of gaming activities” because they “are tailored to accomplish one primary goal: to attract and retain gaming guests and
ultimately generate gaming revenue.” See Plaintiff ’s
Memorandum in Support of its Motion for Summary
Judgment, Doc. 117 at 5. At the same time, the Tribe
argues that the use tax is further preempted under
§ 2710(d)(4), which provides that “nothing in this section shall be interpreted as conferring upon a State . . .
authority to impose any tax . . . upon an Indian tribe
or upon any other person or entity authorized by an
Indian tribe to engage in a class III activity.” On the
other hand, the Defendants assert that § 2710(d)(4)
only prohibits the taxation of actual game play, which
the State is not doing. Further, the Defendants argue
that anything other than the actual game play does not
fall within subsection (vii) because it is not “directly
related to the operation of gaming activities.”
When assessing whether certain subject matter
falls within the scope of IGRA’s catchall provision, it
should not be simply asked “but for the existence of the
Tribe’s class III gaming operation, would the particular subject regulated under a compact provision exist?
Instead, we must look to whether the regulated activity has a direct connection to the Tribe’s conduct of
class III gaming activities.” Doc. 42–1 (Letter from
Donald E. Laverdure, Acting Assistant Secretary, Indian Affairs, to Greg Sarris, Chairman, Federated Indians
of Graton Racheria at 10) (July 13, 2012)) (hereinafter,
“Graton Letter”). See 25 U.S.C. § 2710(d)(3)(C)(vii). To
the extent such activities are “directly related to the

App. 42
operation of gaming activities,” however, Federal
courts need not balance the competing federal, tribal,
and state interests involved, as Congress already completed the balancing test with respect to those activities in enacting IGRA. See Gaming Corp of Am., 88
F.3d at 544 (citing S.Rep. No. 445, 100th Cong., 2d Sess.
6 (1988)).
In opposition to the Tribe’s broad definition of “directly related to the operation of gaming activities,” the
Defendants rely on Michigan v. Bay Mills Indian Cmty.
(Bay Mills), ___ U.S. ___, 134 S.Ct. 2024, 188 L.Ed.2d
1071 (2014) for the proposition that the scope of 25
U.S.C. § 2710(d)(3)(C)(vii) is actually quite narrow. In
Bay Mills, the Supreme Court held that the provision
of IGRA authorizing a state to sue a tribe to enjoin a
class III gaming activity located on Indian lands did
not abrogate tribal sovereign immunity to enjoin a
tribe from operating a casino located outside its reservation. See Bay Mills, 134 S.Ct. at 2039. In an attempt
to fit the suit within the provision’s authority, Michigan argued that, though the casino was outside the Indian reservation, Bay Mills “authorized, licensed, and
operated” that casino from within its own reservation
and that authorization, licensing, and operation was
“Class III gaming activity.” Id. at 2032. Therefore,
Michigan claimed, the State could sue to enjoin the
“gaming activity” because part of that activity took
place on reservation land. Id. The Supreme Court,
however, disagreed, saying that “numerous provisions
of IGRA show that ‘class III gaming activity’ means
just what it sounds like—the stuff involved in playing

App. 43
class III games . . . each roll of the dice and spin of the
wheel.” Id. at 2032–33. That class III gaming activity
is “the gambling in the poker hall, not the proceedings
of the off-site administrative authority,” see id. at 2033,
however, does not answer the question presented to
this Court. Instead, this Court must determine what is
“directly related to the operation of gaming activity,”
or, in the words of the Supreme Court in Bay Mills,
what is “directly related to the operation of ‘the gambling in the poker hall.’ ”
IGRA was “intended to expressly preempt the field
in the governance of gaming activities on Indian
lands,” Gaming Corp. of Am. v. Dorsey & Whitney, 88
F.3d 536, 544 (8th Cir. 1996). It follows then, that
“ ‘[a]ny claim which would directly affect or interfere
with a tribe’s ability to conduct its own [gaming] licensing [and operation] process[es] should fall within the
scope of [IGRA’s] complete preemption.’ ” Casino Res.
Corp. v. Harrah’s Entm’t, Inc., 243 F.3d at 437 (8th
Cir. 2001) (quoting Gaming Corp. of Am. v. Dorsey &
Whitney, 88 F.3d 536, 549 (8th Cir. 1996)). Though that
is the strongest proposition that the preemptive scope
of IGRA applies, that is not the only proposition. Gaming Corp., 88 F.3d at 550 (“The proposition that the
preemptive scope of IGRA encompasses a claim is
strong for claims that would intrude on the tribe’s regulation of gaming. . . . Potentially valid claims under
state law are those which would not interfere with the
nation’s governance of gaming.” (emphasis added)). Indeed, were it the only proposition, § 2710(d)(3)(C)(vii)
would be rendered superfluous, as subsection (i)

App. 44
already provides a means by which states and tribes
may negotiate regarding the application of civil laws
and regulations “that are directly related to, and necessary for, the licensing and regulation of such activity.” 25 U.S.C. § 2710(d)(3)(C)(i). Similarly subsection
(vi) provides that the states and tribes may negotiate
regarding “standards for the operation of such activity
and maintenance of the gaming facility, including licensing.” Id. at § 2710(d)(3)(C)(vi).
“[C]ourts have been quick to dismiss challenges to
generally-applicable laws with de minimis effects on a
tribe’s ability to regulate its gambling operations. For
example, courts have held that IGRA’s preemptive
scope is not implicated in cases involving gaming
management and service contracts with a tribe, Casino
Res. Corp. v. Harrah’s Entm’t, Inc. (Harrah’s Entm’t),
243 F.3d at 438–39 (8th Cir. 2001); contracts to acquire
materials to build a casino, Barona Band, 528 F.3d at
1192; and release of detailed investigative reports on
the management of gaming, Siletz, 143 F.3d at 487.”
Mashantucket Pequot Tribe v. Ledyard, 722 F.3d 457
(2d Cir. 2013). Similarly, in Ledyard, the court found
IGRA did not preempt a property tax imposed by the
state on a non-Indian vendors property leased to the
tribe. Id. at 469–71. All of these cases, however, are distinguishable from the case at bar.
In Harrah’s Entm’t, a non-Indian company, Harrah’s
Entertainment, entered into a consulting agreement
with another non-Indian company, Casino Resource
Corporation (CRC) to jointly pursue gaming opportunities with the Potawatomi Indian Nation. Harrah’s

App. 45
Entm’t, 243 F.3d at 436. After the Nation was unable
to negotiate a compact agreement with the state of
Michigan, the non-Indian companies executed a termination agreement that dissolved their management
relationship. Id. at 437. CRC then sued Harrah’s Entertainment in federal court asserting state law claims,
alleging that Harrah’s Entertainment breached the
consulting agreement and tortiously interfered with
CRC’s “contractual and prospective economic advantage.” Id. The Eighth Circuit found that the state
law claims could not be preempted by IGRA merely
because the original contract between the two parties
was “peripherally associated with tribal gaming.” Id. at
439. Instead, the court found “the potential infringement on a tribe’s governance of gaming” minimal, as “a
non-tribal entity’s state law claim (that does not implicate tribal interests) against another non-tribal entity
is not of central concern to IGRA.” Id. at 440.
Seven years later, in Barona Band, the Ninth Circuit found a state tax on construction materials was
not preempted by IGRA. See Barona Band, 528 F.3d
1184. The Tribe entered into a contract with a nonIndian general contractor to construct the expansion of
the casino floor and hotel, as well as other amenities.
Id. at 1187. In the contract, “the Tribe touted a method
it had devised to circumvent state sales tax, which
would otherwise fall on the contractor, by scheduling
deliveries to occur on tribal lands.” Id. Under this
contract, the contractor entered into a series of subcontracts with contractors in various trades. Id. An audit of the general contractor determined that over

App. 46
$200,000 in sales and use tax associated with purchases of construction materials from non-Indian vendors for use on the casino expansion—with deliveries
taking place on Indian land. Id. at 1188. The court
found that IGRA did not preempt taxation of thirdparty purchases of equipment used to construct the
gaming facilities when the construction materials, purchased by a non-Indian subcontractor, “could be used
for a multitude of purposes unrelated to gaming.” Id.
at 1191–92 (“That these sophisticated parties contracted to create a taxable event on Indian territory
which otherwise would occur on non-Indian territory
factually distinguishes the present case from the multitude of cases where courts have analyzed state taxation on non-Indians performing work on Indian land.”).
The court refused to invalidate the state tax by
preemption “where the Tribe has invited commercial
activity onto its territory for the purpose of marketing
a sales tax exemption to non-Indian businesses who
would otherwise be liable for the state tax under laws
of general applicability.” Id. at 1193. See also Washington v. Confederated Tribes of the Colville Indian
Reservation (Colville), 447 U.S. 134, 100 S.Ct. 2069, 65
L.Ed.2d 10 (1980) (upholding a state tax on cigarettes
sold on-reservation to nonmembers when the only
value added to the transaction by the tribe was the
marketing of a tax exemption).
Similarly, in Ledyard, the Second Circuit upheld a
state tax on non-Indian owners of slot machines that
were leased to a tribe to be used in their on-reservation
gaming facility. See Ledyard, 722 F.3d 457. “[U]nder

App. 47
IGRA, mere ownership of slot machines by the vendors
does not qualify as gaming and taxing such ownership
therefore does not interfere with the ‘governance of
gaming.’ ” Id. at 470. Because the tax was dependent
entirely on a non-Indian’s ownership of the property,
and had nothing to do with a transaction with the
tribe, id. at 469, the tax was permissible, and any effect
on the tribe was “too indirect and too insubstantial” to
support a preemption claim. Id. at 476 (“Any adverse
effect on the Tribe’s finances caused by the taxation of
a private party contracting with the Tribe would be
ground to strike the tax. Absent more explicit guidance from Congress, we decline to return to this longdiscarded and thoroughly repudiated doctrine.”
(quoting Cotton Petroleum Corp. v. New Mexico, 490
U.S. 163, 186–87, 109 S.Ct. 1698, 104 L.Ed.2d 209
(1989))).
Finally, in Confederated Tribes of Siletz Indians v.
Oregon (Siletz), the tribe and the state of Oregon negotiated a compact that authorized Oregon to monitor
and investigate the casino to ensure compliance with
the compact. 143 F.3d 481, 482–84 (9th Cir. 1998). Included in the compact was a provision providing that
the tribe must comply with the state’s public records
laws. Id. The Ninth Circuit found, without any analysis of 25 U.S.C. § 2710(d)(3)(C)(iii), which appears to
answer the question, that the state reporting statute
applied to the tribe’s operations by virtue of the
Tribal—State compact itself. Id. at 484–85. Further,
the court iterated that the records laws did not seek to
usurp tribal control over gaming and the fact that the

App. 48
release of a report that contained damaging information on the operation of the casino could have a detrimental effect on the business was fully consistent
with IGRA’s goal of fair and honest gaming. Id. at 487.
Essentially, the taxes and regulations in the cases
above were only tangentially related to tribal gaming
and each could have taken place regardless of the
tribe’s operation of a casino. Ownership of slot machines by non-Indians, the purchase of construction
materials by non-Indian subcontractors, and the state
law claims of a non-Indian company against another
non-Indian company arising out of a management contract between the two companies are all events that
could arise in spite of the tribe’s ownership and operation of a casino. In this case, most of the transactions
the State seeks to tax are not merely tangentially related to tribal gaming, but would not exist but for the
Tribe’s operation of a casino. Further, by finding the
state’s public records laws consistent with IGRA and
a permissible provision of the compact between the
state and the tribe in Siletz, because the state had
properly included the provision in its compact, preemption analysis was rendered irrelevant. Id. at 484 (“We
are not persuaded that a preemption analysis is necessary here. Rather, we look to the Compact itself.”). The
Tribe in this case similarly argues that preemption
analysis is not necessary here, at least with respect to
their first claim for relief, as the imposition of the use
tax should have been included in the Compact.
In re Gaming Related Cases (Coyote Valley II),
331 F.3d 1094 (9th Cir. 2003), Rincon Band of

App. 49
Luiseno Mission Indians of the Rincon Reservation v.
Schwarzenegger (Rincon), 602 F.3d 1019 (9th Cir.
2010), and Big Lagoon Rancheria v. California (Big
Lagoon), 759 F.Supp.2d 1149 (N.D. Cal. 2010) offer
more instruction. In Coyote Valley II, the tribe asserted
that the state had acted in bad faith in negotiating the
tribal-state compact. The State had insisted on provisions providing for a revenue-sharing trust fund
(RSTF) and a special distribution trust fund (SDF), as
well as a provision requiring the tribe to adopt a labor
relations ordinance. The Tribe argued these provisions
fell outside the list of appropriate topics for tribal-state
compacts in 25 U.S.C. § 2710(d)(3)(C) and that the insistence on the RSTF and SDF provisions constitute a
“demand by the State for direct taxation of the Indian
tribe,” 25 U.S.C. § 2710(d)(7)(B)(iii)(II). The Ninth Circuit disagreed. The RSTF funds were held to be directly related to the operation of gaming as those
amounts were intended to be redistributed from gaming to non-gaming tribes, which the court found to be
consistent with IGRA’s purpose of furthering tribal
economic development. Id. at 1111. The SDF payments
were also considered directly related as those funds
were designated to compensate for negative externalities associated with gaming, i.e., for gaming-related
purposes. Id. at 1114. Further, both the RSTF and SDF
provisions were permissible because the state had “offered meaningful concessions in return” and therefore
“[did] not exercise ‘authority to impose’ anything.” Id.
at 1112. Finally, the labor relations provision was also
found to be directly related to the operation of gaming.
The provision “demanded that tribes meet with labor

App. 50
unions to negotiate independently a labor ordinance
addressing only organization and representational
rights and applicable only to employees at tribal casinos and related facilities.” Id. at 1116. The compact
provided:
Notwithstanding any other provision of this
Compact, this Compact shall be null and void
if on or before October 13, 1999, the Tribe has
not provided an agreement or other procedure
acceptable to the State for addressing organizational and representational rights of Class
III Gaming Employees and other employees
associated with the Tribe’s Class III gaming
enterprise, such as food and beverage, housekeeping, cleaning, bell and door services, and
laundry employees at the Gaming Facility or
any related facility, the only significant purpose of which is to facilitate patronage at the
Gaming Facility.
Id. (emphasis added). The court found that this provision was “directly related to the operation of gaming
activities” and thus permissible to include in the compact pursuant to 25 U.S.C. § 2710(d)(3)(C)(vii). Id. at
1115–16. “Without the ‘operation of gaming activities,’
the jobs this provision covers would not exist; nor, conversely, could Indian gaming activities operate without
someone performing these jobs.” Id. at 1116. Because
all of the provisions were found to be “directly related
to the operation of gaming activities,” the Court found
the state did not negotiate in bad faith in requiring
that the Tribe consent to those provisions. Id. at 1115–
16.

App. 51
Similarly, and in relying on Coyote Valley II, the
Northern District of California found in Big Lagoon
that the state’s requests for environmental mitigation
measures in the compacting process “was permissible
so long as such measures directly relate to gaming operations or can be considered standards for the operation and maintenance of the Tribe’s gaming facility”
and the state offered meaningful concessions in return.
Big Lagoon, 759 F.Supp.2d at 1161. The tribe did not
dispute that the gaming activities would take place in
an environmentally-sensitive area or that the operations would take place without any negative environmental effects. Id. Further, “Big Lagoon [did] not
establish that the State’s proposed environmental mitigation measures [were] so discordant with IGRA’s
purposes that they amount to prohibited topics of negotiation.” Id. at 1162.
In Rincon, the Ninth Circuit was presented with
another revenue sharing provision in a tribal-state
compact. The court referred back to its earlier decision
in Coyote Valley II, recognizing that the court construed the meaning of subjects “directly related to the
operation of gaming” broadly to include “fair distribution of gaming opportunities” and “compensation for
the negative externalities caused by gaming.” Rincon,
602 F.3d 1019, 1033–34. However, the court found
that the general fund revenue sharing, unlike funds
paid into the RSTF and SDF, had undefined potential
uses and therefore could not be found to be directly related to gaming. “Whether revenue sharing is an authorized negotiation topic under § 2710(d)(3)(C)(vii)

App. 52
thus depends on the use to which the revenue will be
put, not on the mere fact that the revenue derives from
gaming activities.” Id. (“No amount of semantic sophistry can undermine the obvious: a non-negotiable,
mandatory payment of 10% net profits into the State
treasury for unrestricted use yields public revenue,
and is a ‘tax.’ ”).
In the case presented before the Court, the State
seeks to impose a use tax on the transactions of nonmembers with the Indian tribe at the Casino and its
amenities, as well as the Store. The funds from this use
tax are placed in the State’s general fund, to be used
for any number of purposes. As mentioned supra, most
of the transactions the State seeks to tax are not
merely tangentially related to tribal gaming, but
would not exist but for the Tribe’s operation of a casino,
thus they are not of the kind in Harrah’s Entm’t that
would occur between non-Indians regardless of the existence of the Casino.
This Court finds that whether the only significant
purpose of these amenities is to facilitate gaming is
supported by evidence of complementarity of these
amenities with gaming. Complementary goods are
“[p]airs of goods for which consumption is interdependent.” Declaration of Jonathan B. Taylor in Support of
[the Tribe’s] Motion for Summary Judgment, Doc. 118–
1, at 10 (citing G. BANNOCK ET AL., DICTIONARY
OF ECONOMICS 66 (4th ed. 2003) [hereinafter BANNOCK ET AL.]). If a good is complementary, the proportionate change in the quantity demanded of one
good divided by the proportionate change in the price

App. 53
of another good will be negative. Id. at 11 (citing BANNOCK ET AL., at 83). For example, if the price of coffee
rises, the demand for coffee creamer falls. “Complementarity often motivates an enterprise to develop one
product as a “loss-leader” to increase sales of its complement.” Id. at 13. A “loss-leader” is a “product deliberately sold below cost and therefore at a loss to in
an attempt to encourage sales of other products.” Id.
(citing A. ASHWIN, M. TAYLOR, & N.G. MANKIW,
BUSINESS ECONOMICS 324 (2016)). At the Licensed
Premises, the food and beverage department, live entertainment, and the Store all operate at a loss. While
the Court finds the fact that these amenities operate
at a loss to be evidence of their complementarity, it
does not find it dispositive. The Court finds more convincing evidence that increases in patronage at one
amenity is directly tied to increases in gaming activity
itself.
The Tribe has shown the complementarity of food,
alcohol, and hospitality with casino activity. For example, “a one-dollar increase in the variable representing
overall restaurant sales produced a $91 increase in slot
wagers.” V. Kalargyrou, A.K. Singh & A.F. Lucas, Estimating the Effect of Racino Restaurant Sales on Slot
Wagering Volume, 24 INT’L. J. OF CONTEMPORARY
HOSP. MGMT. 1088, 1088 (2012). Further, “[a] 10%
increase in the price of food reduces consumption of
entertainment on average by 7.2%.” R.H. FRANK,
MICROECONOMICS & BEHAVIOR 126 (2015). This
Court has found from the start that alcohol consumption and gaming on a casino floor are commonly

App. 54
associated and certainly reinforce one another. See e.g.,
Hakimoglu v. Trump Taj Mahal Assocs., 70 F.3d 291,
294 (3rd Cir. 1995) (quoting Tose v. Greate Bay Hotel
and Casino Inc., 819 F.Supp. 1312, 1317 n. 8 (D.N.J.
1993), aff ’d, 34 F.3d 1227 (3rd Cir. 1994)) (“ ‘The State
has regulated the minutiae of gaming rules and alcohol service and expressly permitted the serving of free
drinks to patrons at the gaming tables. Surely it could
not have been unaware that the cognitive functioning
of many gamblers would be impaired by drinking or of
the consequences of permitting persons so impaired to
gamble.’ ”); Tose, 819 F.Supp. at 1320 (“At the very least
the State condones casino patrons drinking while they
place bets, and the policing of providing free drinks on
request could arguably be said to actively encourage
this conduct.”). This Court now finds that related
amenities, the only significant purpose of which is to
facilitate gaming activities at the Casino, also fall
within the purview of 25 U.S.C. § 2710(d)(3)(C)(vii).
The Court is convinced that but for the existence of the
Casino, the gift shop, hotel, RV park, food and beverage
services, and live entertainment events would not exist
in the sleepy but pleasant little town of Flandreau,
population 2,332. Nor could the Casino operate without the existence of these amenities. Unlike other casinos, Royal River is far from a substantial population
center and, in fact, provides the only hotel service in
town. Without a hotel or RV park, the Casino simply
could not operate in order to further the self-sufficiency
of the Tribe. Similarly, the gift shop would be of little
worth without the Casino’s apparel. When purchases
take place at these amenities, the state is not “losing

App. 55
tax revenues it would otherwise obtain from sales
made outside of tribal boundaries,” nor is the Casino
and its related facilities undermining the state economy or tax base. See Indian Country, U.S.A., Inc. v.
Oklahoma, 829 F.2d 967, 986 (10th Cir. 1987). The
product of value is not a tax exemption, but a “form of
entertainment that is wholly created, sold, and consumed within the boundaries” of the Flandreau Indian
Reservation. Id. The product of value is a form of entertainment the only significant purpose of which is to
facilitate gaming activities at the Casino.
Beyond what is authorized by 25 U.S.C.
§ 2710(d)(3)(C), 25 U.S.C. § 2710(d)(4) prohibits a state
from taxing “an Indian Tribe or upon any other person
or entity authorized by an Indian tribe to engage in a
class III activity.” 25 U.S.C. § 2710(d)(4). The Court
finds logical that that proscription applies to nonmembers on the Casino floor authorized to gamble, which
includes the costs of associated activities, i.e., gamblers
and what they spend on gambling, alcohol, food, rooms,
and other merchandise from the Casino. However, the
mere fact that the convenience store falls within the
same business enterprise operated by the Tribe is not
sufficient to equate such services as directly related to
the operation of gaming. See Barona Band of Mission
Indians v. Yee, 528 F.3d 1184, 1193 (2008) (“Extending
IGRA to preempt any commercial activity remotely related to Indian gaming-employment contracts, food
service contracts, innkeeper codes-stretches the statute beyond its stated purpose.”). Were the various
food, beverages, and other services offered at the

App. 56
convenience store to be within the scope of 25 U.S.C.
§ 2710(d)(3)(C)(vii), there would be no end to what
other activities would fall under the IGRA’s protection
when, by virtue of a business decision, they are
somehow operated under the same umbrella as an
IGRA-sanctioned casino. The Tribe has not presented
sufficient evidence to the Court to show that the Store
is sufficiently complementary to gaming, thus the
Court finds that the Store, though it may benefit from
its proximity to the Casino, is not in existence but for
the tribe’s operation of a Casino and it cannot be said
that the only substantial purpose of a convenience
store is to facilitate gaming.9
Section 2710(d)(4) provides that IGRA should not
be interpreted to provide the state with authority to
impose a tax on (1) the tribe or (2) “any other person or
entity authorized by an Indian tribe to engage in a
class III activity,” except to the extent such a tax is
agreed to in the compact under § 2710(d)(3)(C)(iii) as
an “assessment by the State of such activities in such
amounts as are necessary to defray the costs of regulating such activity.” In other words, § 2710(d)(4) reinforces the permissible compact negotiation topics
provided in § 2710(d)(3)(C) by requiring a state to engage in compact negotiations despite the fact that
IGRA does not grant the state any additional taxing
9

Prior to oral argument, the Court specified some of the
issues to be addressed. Plaintiff submitted additional affidavits
on the day of argument. The Court did not request nor authorize
supplementation to the record which was long before closed, so
that submission has not been considered.

App. 57
authority. See Rincon 602 F.3d at 1031. “[I]t is clear
from the legislative history that by limiting the proper
topics for compact negotiations to those that bear a direct relationship to the operation of gaming activities,
Congress intended to prevent compacts from being
used as subterfuge for imposing State jurisdiction on
tribes concerning issues unrelated to gaming.” Coyote
Valley II, 331 F.3d at 1111. Instead, the state may only
negotiate for “such amounts as are necessary to defray
the costs of regulating such activity.” Any other request
for “revenue sharing” is only a permissible topic for
compact negotiation, under Rincon, “if the revenue
sharing provision is (a) for uses ‘directly related to the
operation of gaming activities’ in § 2710(d)(3)(C)(vii),
(b) consistent with the purposes of IGRA, and (c) not
‘imposed’ because it is bargained for in exchange for
a ‘meaningful concession.’ ” Rincon, 602 F.3d at 1033
(emphasis omitted).
The Defendants contend that the Tribe’s motion
may not be granted without finding that the IGRA provision describing compactable topics is a mandatory
provision rather than a permissive one. Indeed, IGRA
provides that compacts “may include provisions” as set
forth in 25 U.S.C. § 2710(d)(3)(C), and not that the compacts “shall” contain such provisions. However, the list
of subjects is merely permissive in that a compact is
not required to contain any of the subjects listed. It is
mandatory, however, that if a tribe requests negotiation on any of those subjects, a state “shall” negotiate
in good faith on the requested subjects. 25 U.S.C.
§ 2710(d)(3)(A). Further, if the state wishes to have

App. 58
authority over any of the listed subjects, it is mandatory that such authority be found in a valid gaming
compact. See Gaming Corp of Am. v. Dorsey & Whitney,
88 F.3d 536, 546–47 (“[U]nder [IGRA], the only method
by which a state can apply its general civil laws to
gaming is through a tribal-state compact.”) Ultimately,
since the Court holds that the slots, table games, food
and beverage services, hotel, RV park, live entertainment events, and gift shop are directly related to class
III gaming pursuant to 25 U.S.C. § 2710(d)(3)(C)(vii),
regulation and taxation is, therefore, compactable between a tribe and a state. As the State and the Tribe
did not include a provision providing for such taxation
in the gaming compact, the application of the use tax
to such amenities is preempted by IGRA and the
Tribe’s motion for summary judgment is granted to
that extent. Even had the State negotiated for such a
provision, though, the State would have to earmark
those funds for services that are also directly related
to the operation of gaming activities as well as offer
meaningful concessions in return to satisfy the rationale of Rincon. The remittance of those taxes into a
general fund with unlimited potential uses, such as the
State’s general fund here, would not satisfy Rincon and
would be preempted by IGRA as an impermissible negotiation topic. Finally, with respect to the Store, the
Tribe’s motion for summary judgment is denied, as the
convenience store’s connection to the gaming activities
is too indirect and insubstantial.

App. 59
B.

Under Federal Law

“The federal policy favoring tribal self-government
operates even in areas where state control has not
been affirmatively preempted by federal statute.” Iowa
Mut. Ins. Co. v. LaPlante, 480 U.S. 9, 14, 107 S.Ct. 971,
94 L.Ed.2d 10 (1987). Thus, it is still necessary to determine if the use tax, where not preempted by plain
implication of IGRA—in other words, the sale of goods
and services at the Store—is not otherwise preempted
under the Bracker balancing test.
Undertaking on-reservation preemption analysis
begins with determining where the “legal incidence” of
the tax falls. See Oklahoma Tax Comm’n v. Chickasaw
Nation, 515 U.S. 450, 458–59, 115 S.Ct. 2214, 132
L.Ed.2d 400 (1995). “State taxes on nontribal members
in Indian country are not categorically barred. Instead,
courts apply a ‘flexible preemption analysis sensitive
to the particular facts and legislation involved,’ Cotton
Petroleum, 490 U.S. at 176, 109 S.Ct. 1698, to determine
whether a state can impose the taxes.” BOBROFF, supra, at 702. From there, federal and tribal interests, in
conjunction, are weighed against state interests. If the
former outweighs the latter, the tax is invalid. If, however, state interests predominate, the state tax on the
nonmember is permissible. See Chickasaw Nation, 515
U.S. at 459, 115 S.Ct. 2214. Other factors that have
been considered in the context of on-reservation state
tax preemption include: the degree of federal regulation, the respective governmental interests of the tribe
and state; provision of tribal or state services to the
part the state seeks to tax, see Machinery Co. v. Arizona

App. 60
State Tax Comm’n, 448 U.S. 160, 100 S.Ct. 2592, 65
L.Ed.2d 684 (1980); White Mountain Apache Tribe v.
Bracker, 448 U.S. 136, 143–51, 100 S.Ct. 2578, 65
L.Ed.2d 665 (1980); Colville, 447 U.S. at 152–59, 100
S.Ct. 2069; the economic burden of the tax, see Bracker,
448 U.S. at 149–50, 100 S.Ct. 2578; whether the value
being taxed is generated on the reservation or is attracted to the reservation solely by the claimed exemption from state taxes, see Colville, 447 U.S. at 154–57,
100 S.Ct. 2069; and whether the state tax discriminates against Indian commerce or unduly burdens it,
see id. at 156–57, 100 S.Ct. 2069 (dictum).
There is no dispute that the incidence of the use
tax imposed on Store purchases falls upon the nonmember consumer. Therefore, the Court must apply
the Bracker balancing test to determine if the use tax
is permissible. “The traditional notions of Indian sovereignty provide a crucial ‘backdrop’ against which any
assertion of State authority must be assessed.” New
Mexico v. Mescalero Apache Tribe, 462 U.S. 324, 334,
103 S.Ct. 2378, 76 L.Ed.2d 611 (1983) (internal citations omitted). Both the Tribe and the Federal Government have an interest in promoting tribal selfgovernment, including “Congress’ overriding goal of
encouraging ‘tribal self-sufficiency and economic development.’ ” Id. (citing Bracker, 448 U.S. at 143, 100 S.Ct.
2578 (footnote omitted)). However, “[the State] does not
infringe the right of reservation Indians to “make their
own laws and be ruled by them” merely because the
result of imposing its taxes will be to deprive the Tribes
of revenues which they currently are receiving.”

App. 61
Colville, 447 U.S. at 156, 100 S.Ct. 2069 (citing Williams
v. Lee, 358 U.S. 217, 220, 79 S.Ct. 269, 3 L.Ed.2d 251
(1959). “While the Tribes do have an interest in raising
revenues for essential governmental programs, that
interest is strongest when the revenues are derived
from value generated on the reservation by activities
involving the Tribes and when the taxpayer is the recipient of tribal services.” Id. at 156–57, 100 S.Ct. 2069.
“The State also has a legitimate governmental interest
in raising revenues, and that interest is likewise
strongest when the tax is directed at off-reservation
value and when the taxpayer is the recipient of state
services.” Id. at 157, 100 S.Ct. 2069. See also Barona
Band, 528 F.3d at 1193 (citing Ramah, 458 U.S. at 843,
102 S.Ct. 3394) (“We recognize that the state interest
strengthens where there is a nexus between the taxed
activity and the government function provided.”).
Where the Federal government has undertaken
comprehensive regulation, a number of policies underlying the federal regulatory scheme are threatened by
the taxes, and the state is unable to justify the taxes
except in terms of a generalized interest in raising revenue, the taxes are impermissible. See Bracker, at 448
U.S. at 151, 100 S.Ct. 2578. Where, however, the Tribe
benefits from generalized government functions, the
legitimacy of generalized taxes on third parties with
whom the Tribe does business is strengthened. See
Ledyard, 722 F.3d at 475.
IGRA created a federal National Indian Gaming
Commission (NIGC) to oversee regulation, licensing,
and background checks of key employees. The Store’s

App. 62
connection to the NIGC, however, is tangential, and
none of the functions overseen by the NIGC take place
at the Store. The Tribe asserts that the Store, like its
other facilities, is subject to Indian Health Services
health and safety regulations and Bank Secrecy Act
regulations regarding the handling of cash with which
the Tribe must comply. This Court is not convinced
that this is the same extensive regulation seen in
other cases where the courts have found no room for
state regulation, nor is it regulation that applies only
to the Store by virtue of its indirect connection to the
casino. Further, the cost of compliance with the tax,
though it may decrease revenue in general, is not
enough to shake up the regulatory structure currently
in place.
While the value of the Tribe’s goods and services
need not come from on-reservation activity, the Tribe
must serve as more than “a conduit for the products of
others.” Cabazon Band of Mission Indians v. Wilson, 37
F.3d 430, 435 (9th Cir. 1994) (“It is not necessary . . .
that the entire value of the on-reservation activity
come from within the reservation’s borders. It is sufficient that the Bands have made a substantial investment in the gaming operations and are not merely
serving as a conduit for the products of others.”). The
Tribe argues that the value of the Store is substantially produced on the reservation. The Tribe built
the Store, purchases and stocks the items in the
Store, as well as prices and monitors the items for
spoilage. The Tribe also asserts that value added on
the reservation includes additional costs of overhead,

App. 63
such as marketing, human resources, maintenance
costs, accounting, security, surveillance, etc. Certainly
the same overhead costs can be said to exist in any
business. However, Colville requires that the value
marketed be generated on the reservation “by activities in which the Tribes have a significant interest.”
Colville, 447 U.S. at 155, 100 S.Ct. 2069. Though tribal
sovereignty and economic development are activities
in which the tribe has an interest, it is insufficient by
itself to bar the State’s generally applicable tax imposed on nonmember purchases from a convenience
store. See Ledyard, 722 F.3d at 477 (“Tribal sovereignty
is an important consideration for a court weighing interests in the Bracker test, but it is insufficient in itself
to bar the State’s generally applicable tax imposed on
non-Indians’ ownership of on-reservation personal
property.”).
Finally, the use tax imposed on goods and services
provided at the Store will be placed into the State’s
general fund, which is distributed for any number of
services including funding for schools, health and medical services, emergency management services, Medicaid, economic assistance programs, and long-term
care services, parks and recreation services, court services, and correctional services. While the parties disagree as to the extent the nonmember consumers of the
Store benefit from these services, it stands to reason
that South Dakota residents generally benefit from the
services provided by the general fund, regardless of the
extent to which those services are provided on the reservation.

App. 64
“[T]he State does not interfere with the Tribes’
power to regulate tribal enterprises when it simply imposes its tax on [use by] nonmembers.” Colville, 447
U.S. at 159, 100 S.Ct. 2069. “Nor would the imposition
of [the] tax on these purchasers contravene the principle of tribal self-government, for the simple reason
that nonmembers are not constituents of the governing
tribe.” Id. at 161, 100 S.Ct. 2069. Further, “[t]he State
has an interest in the uniform application of its tax
code.” Town of Ledyard, 722 F.3d at 475. The Court
finds the State’s interests outweigh the general interests of the Federal Government and the Tribe with respect to a tax imposed on nonmember purchases made
at the Store. Thus, the Tribe’s motion for summary
judgment with respect to preemption of the tax on nonmember purchases at the Store is denied.
II.

Discriminatory Nature of State Tax

In addition to the preemption arguments asserted
above, the Tribe also argues in their fourth Claim for
Relief of their First Amended Complaint and the final
component of their Motion for Summary Judgment
that the State use tax is invalid because it is discriminatory. The Tribe asserts that the State discriminates
against the Tribe by failing to grant a tax credit to consumers who have paid sales or use tax to the Tribe on
the same transaction sought to be taxed by the State,
while granting a credit to consumers who have paid a
tax to other taxing jurisdictions.

App. 65
S.D.C.L. 10–46–6.1 provides:
The amount of any use tax imposed with respect to tangible personal property, any product transferred electronically, or services shall
be reduced by the amount of any sales or use
tax previously paid by the taxpayer with respect to the property on account of liability to
another state or its political subdivisions.
This credit is only available if the other state “reciprocally” grants a credit. Id. In accordance with the
statute, the State grants such a credit to forty-three
states and the District of Columbia.
The Tribe imposes a tax on all on-reservation purchases of goods and services at a rate of six percent.
Further, the Tribe’s tax code provides:
The amount of any tax imposed by this Subchapter with respect to tangible personal
property or services shall be reduced by the
amount of any sales or use tax previously paid
by the taxpayer with respect to the property
or services on account of liability to another
tribe or state or their political subdivisions.
23 FSST Tribal Law and Order Code § 3.36.
In Colville, the Court indicated that “[s]tate[s] may
sometimes impose a nondiscriminatory tax on nonIndian customers of Indian retailers doing business
on the reservation.” Colville, 447 U.S. at 151, 100 S.Ct.
2069 (“The [Indian Commerce] Clause may have a
more limited role to play in preventing undue discrimination against, or burden on, Indian Commerce.”). “A

App. 66
tax is discriminatory if it is not imposed equally upon
similarly situated groups.” Salt River Pima-Maricopa
Indian Cmty. v. Yavapai County, 50 F.3d 739, 740 (9th
Cir. 1995) (citing First Federal S&L v. Mass. Tax
Comm’n, 437 U.S. 255, 260–62, 98 S.Ct. 2333, 57
L.Ed.2d 187 (1978); United States v. Fresno, 429 U.S.
452, 462, 97 S.Ct. 699, 50 L.Ed.2d 683 (1977)).
The Defendants argue that the nonmember consumers are subject to a nondiscriminatory tax because
the Tribe is not similarly situated to other states or
their political subdivisions. By contrast, the Tribe, relying on Prairie Band Potawatomi Nation v. Wagnon
(Prairie Band), 476 F.3d 818 (10th Cir. 2007) and
Cabazon Band of Indians v. Smith, 388 F.3d 691 (9th
Cir. 2004), asserts that it is a similarly-situated sovereign government entitled to the credit. However, the
Tribe’s reliance on these cases is misplaced. Unlike the
tribe and state’s similar public safety interests in the
use of emergency light bars on patrol vehicles at issue
in Cabazon, and unlike the complete ouster of tribal
jurisdiction caused by the registration and titling laws
of the state in Prairie Band, this is a tax case, where,
“[w]hen two sovereigns have legitimate authority to
tax the same transaction, exercise of that authority by
one sovereign does not oust the jurisdiction of the
other.” Prairie Band, 476 F.3d 818, 827 (citing Colville,
447 U.S. at 184 n. 9, 100 S.Ct. 2069 (Rehnquist, J., concurring in part, concurring in result in part, and dissenting in part) (“When two sovereigns have legitimate
authority to tax the same transaction, exercise of
that authority by one sovereign does not oust the

App. 67
jurisdiction of the other. If it were otherwise, we would
not be obligated to pay federal as well as state taxes on
our income or gasoline purchases. Economic burdens
on the competing sovereign . . . do not alter the concurrent nature of the taxing authority.”)).
The Tribe also argues that instead of comparing
tribal retailers to other retailers in the State of South
Dakota, the Court should compare tribal retailers to
“similarly situated” retailers in other states because
there are no “similarly situated” retailers in the State.
Id. at 33. The Tribe argues that “the discrimination
arises not from a failure to grant tax-exempt treatment to goods destined for the Tribe-as-retailer (as
in Wagnon), but from the failure to afford equal
treatment to the Tribe-as-government.” Id. at 33. In
Cabazon, the regulation was found discriminatory
because it treated law enforcement agencies of other
States differently from the law enforcement agency of
the tribe. The case at hand is not a matter of treating
a tribal agency differently than an agency of another
State, this is a matter of granting a tax credit to a State
versus a tribe within the boundaries of the same State
imposing the tax.
All of the transactions the State seeks to tax are
located entirely within the borders of the Flandreau
Indian Reservation and also within the borders of the
State of South Dakota. Both entities have taxing jurisdiction of nonmembers within their borders to the extent state taxation has not been preempted by federal
law. As stated above, federal law has not preempted the
state tax with respect to nonmember consumers of the

App. 68
Store. While these nonmember consumers will be subject to a total tax that is higher on the reservation than
off the reservation, that is not because the tax is discriminatory. The State tax is imposed at a uniform rate
throughout the state’s jurisdiction, both on and off the
reservation. “The burdensome consequence is entirely
attributable to the fact that the [transactions] are located in an area where two governmental entities
share jurisdiction.” Cotton Petroleum, 490 U.S. at 189,
109 S.Ct. 1698.
In Wagnon v. Prairie Band Potawatomi Nation
(Wagnon), 546 U.S. 95, 126 S.Ct. 676, 163 L.Ed.2d 429
(2005), the Supreme Court found that the tribe was not
similarly situated to other states or the Federal Government, which were exempt from the fuel tax, because
the Tribe benefited from the proceeds of the fuel tax
imposed on Kansas fuel retailers. See Wagnon, 546. U.S
at 115, 126 S.Ct. 676. The fuel tax proceeds were used
to pay for a significant portion of the costs of maintaining the roads and bridges on the tribe’s reservation,
including the main highway used by casino patrons.
“Kansas offers no similar services to the several States
or the Federal Government.” Id. The Tribe and the
State disagree as to how similar the facts of Wagnon
are to the case presented here, as the Tribe argues that
“South Dakota does not expend significant sums from
the proceeds of its use tax to provide government services within the Flandreau Indian Reservation or
within the exterior boundaries of other states, let alone
services specifically and uniquely funded through the
challenged tax itself.” Doc. 117 at 33. However, “the

App. 69
relevant services provided by the State include those
that are available to the [consumers] and the members
of the Tribe off the reservation as well as on it.” Cotton
Petroleum, 490 U.S. at 190, 109 S.Ct. 1698. Although
the proceeds of the use tax enter the State’s general
fund, which is not earmarked for any expenditures
in particular, the Tribe does indeed benefit from offreservation road maintenance and public safety services leading to the Store, the licensure of some food
vendors, as well as other services. Further, nonmember
consumer residents of South Dakota benefit from a
wide range of general services offered by the State
when off the reservation. Therefore, the State tax is not
discriminatory, as the Tribe is not similarly situated
to other states which have been granted a tax credit.
Accordingly, the Tribe’s Motion for Summary Judgment on Claim for Relief Four is denied and the Defendants’ Motion for Summary Judgment on the same
is granted.
III. Preemption of Collection and Remittance
of the Tax
The Tribe’s second and fifth Claims for Relief of
the First Amended Complaint allege that the State’s
attempt to impose the obligation to collect and remit
the use tax 1) violates IGRA and 2) is preempted by
federal law and infringes upon Tribal sovereignty. The
Defendants moved for summary judgment on the issues, arguing that IGRA’s scope does not include the
collection and remittance of the use tax as it is not imposed on gaming activities. The Tribe asserted that the

App. 70
issues were not ripe for summary judgment, as the
collection and remittance requirements would not be
at issue unless some or all of the disputed taxes were
found to be valid.
As the Court discussed supra, to the extent the tax
is imposed on transactions that are “directly related to
the operation of gaming activities” the tax is impermissible, as it should have been imposed via the gaming
contract. To the extent the tax is invalid, the challenge
to collection and remittance requirements is therefore
moot. However, to the extent the tax is imposed on
transactions that are not “directly related to the operation of gaming activities” (i.e., nonmember consumer
purchases at the Store), the Court must consider
whether the collection and remittance requirements
are preempted by federal law or improperly infringe on
tribal sovereignty.
Moe v. Salish & Kootenai Tribes, 425 U.S. 463, 96
S.Ct. 1634, 48 L.Ed.2d 96 (1976), established that a
State may impose at least “minimal” burdens on an
Indian retailer to aid in enforcing and collecting a valid
tax. See also Dep’t. of Taxation & Fin. v. Milhelm Attea
& Bros., Inc., 512 U.S. 61, 73, 114 S.Ct. 2028, 129
L.Ed.2d 52 (1994) (“States may impose on reservation
retailers minimal burdens reasonably tailored to the
collection of valid taxes from non-Indians.”). The State
imposes the tax on the transaction at the Store and
where the goods or services purchased are ultimately
consumed is irrelevant. The Tribe’s burden in enforcing and collecting the tax is limited to determining if
the purchase is made by a member of the Tribe or a

App. 71
nonmember. This collection burden is not unlike those
upheld in Moe and Colville, and is therefore valid. The
Court thus grants the Defendants’ motion for summary judgment on the second and fifth Claims for Relief to the extent the collection and remittance
requirements are imposed on nonmember consumer
purchases at the Store.
IV. Validity of S.D.C.L. § 35–2–24
In its sixth Claim for Relief, the Tribe also argues
that S.D.C.L. § 35–2–24 interferes with and is, therefore, preempted by IGRA. In the alternative, in its
eighth Claim for Relief, the Tribe argues that the statute is impermissible as it exceeds the scope of the
State’s regulatory authority under 18 U.S.C. § 1161.
The Defendants have moved for summary judgment
while the Tribe asserts that the issues, like the collection and remittance requirements, are not ready for
summary judgment review.
S.D.C.L. § 35–2–24 reads, in pertinent part,
No license granted under this title may be reissued to an Indian tribe operating in Indian
country controlled by the Indian tribe or to an
enrolled tribal member operating in Indian
country controlled by the enrolled tribal member’s tribe until the Indian tribe or enrolled
tribal member remits to the Department of
Revenue all use tax incurred by nonmembers
as a result of the operation of the licensed
premises, and any other state tax has been remitted or is not delinquent.

App. 72
As was established supra, to the extent the taxes
are imposed on transactions that are “directly related
to the operation of gaming activities,” those taxes are
impermissible as they should have been imposed
through the compact negotiation process provided by
IGRA. To the extent those taxes are imposed on transactions at the Store, however, they are not preempted
by IGRA, and the Court grants the Defendants’ motion
for summary judgment on the Tribe’s sixth claim for
relief to that extent. However, as to the taxes imposed
on transactions at the Store, the Court must determine
whether the conditioning of the renewal of a beverage
license on the collection and remittance of a use tax on
nonmember consumer purchases is permissible.
18 U.S.C. § 116110 provides that “liquor transactions in Indian country are not subject to prohibition
under federal law provided those transactions are ‘in
conformity both with the laws of the State in which
such act or transaction occurs and with an ordinance
duly adopted by the tribe having jurisdiction over such
10

The statute reads:
The provisions of sections 1154, 1156, 3113, 3488, and
3669, of this title, shall not apply within any area that
is not Indian country, nor to any act or transaction
within any area of Indian country provided such act or
transaction is in conformity both with the laws of the
State in which such act or transaction occurs and with
an ordinance duly adopted by the tribe having jurisdiction over such area of Indian country, certified by the
Secretary of the Interior, and published in the Federal
Register.
28 U.S.C. § 1161.

App. 73
area of Indian country.’ ” Rice v. Rehner, 463 U.S. 713,
716, 103 S.Ct. 3291, 77 L.Ed.2d 961 (1983) (quoting 18
U.S.C. § 1161). In finding that “tradition simply has not
recognized a sovereign immunity or inherent authority
in favor of liquor regulation by Indians, id. at 722, 103
S.Ct. 3291, and that, because of the potential for substantial impact beyond the reservation, the state has
important interests in controlling liquor traffic within
its borders, id. at 725–56, 103 S.Ct. 3291, the statute,
in effect, operated to delegate Congressional authority
over liquor regulation in Indian country to both Indian
tribes and states, concurrently. See id. at 723–79, 733–
34, 103 S.Ct. 3291.
Prosecutions of Indians for state liquor law violations on reservation land, Fort Belknap Indian Cmty.
of Fort Belknap Indian Reservation v. Mazurek, 43 F.3d
428 (9th Cir. 1994), tribal regulations over non-Indians
within reservation land, City of Timber Lake v. Cheyenne
River Sioux Tribe, 10 F.3d 554 (8th Cir. 1993), a state
alcohol license requirement to sell 3.2% beer, Citizen
Band of Potawatomi Indian Tribe v. Okla. Tax Comm’n,
975 F.2d 1459 (10th Cir. 1992), and a state tax on liquor
sales to non-Indians, Squaxin Island Tribe v. Washington, 781 F.2d 715 (9th Cir. 1986) have all been upheld
under 18 U.S.C. § 1161. However, there is little by way
of instruction as to what states may permissibly tax
before issuing a liquor license. This Court has expressed skepticism about the State’s view of 18 U.S.C.
§ 1161 before. “The State seems to suggest that the
state laws the tribes must comply with may be of
indeterminate scope and contemplate a vast array of

App. 74
subject matter unrelated to alcohol regulation. All a
state need do is establish a statutory scheme superficially connecting the subject matter (here, a tax) with
alcohol regulation.” Doc. 59 at 31.
A state’s authority to tax in Indian country is operationally curtailed by a tribe’s sovereign immunity
in a way in which liquor regulation is not. Recognizing
the limited tax enforcement power of States on reservations, the Supreme Court suggested five alternative
remedies for the collection of a cigarette tax in Okla.
Tax Comm’n v. Citizen Band Potawatomi Indian Tribe,
498 U.S. 505, 111 S.Ct. 905, 112 L.Ed.2d 1112 (1991),
including: imposing liability on individual agents of
tribes for failing to collect the taxes; seizing untaxed
goods in shipment to reservations; collecting taxes
from wholesalers off reservations; entering into collection agreements with tribes; and seeking congressional
legislation. Id. at 513–14, 111 S.Ct. 905. Though certainly not dispositive of the issue, the Supreme Court
did not recommend imposing conditions on licensing
requirements, liquor or otherwise.
“Indian traders are not wholly immune from state
regulation that is reasonably necessary to the assessment or collection of lawful state taxes.” Milhelm Attea,
512 U.S. at 75, 114 S.Ct. 2028. However, the Court does
not find the imposition of a condition that the tribe remit all outstanding taxes on the renewal of an alcohol
license as reasonably necessary. If it were, there would
be no limit to the authority the State would try to impose on a tribe by virtue of the State’s regulation of
alcohol sales. The State has a valid interest in the

App. 75
regulation of alcohol within its borders due to the potential for substantial impact beyond the reservation.
Rice, 463 U.S. at 725–26, 103 S.Ct. 3291. However, conditioning an alcohol license on taxes entirely unrelated
to alcohol and its potential for substantial impact does
not further the State’s recognized interest. Therefore,
the Defendants’ Motion for Summary Judgment on
claim eight is denied.
V.

Declaration of Jurisdiction

The Tribe’s seventh Claim for Relief seeks a declaration upon resolution of the use tax claims that the
escrow agent should disburse to the Tribe the funds
held in escrow pursuant to the deposit agreement between the Tribe and the State. The State agrees that
the Court’s determination regarding the applicability
of the state’s use tax to nonmember consumer purchases at the Licensed Premises will determine the
appropriate recipient of the proceeds of the escrow account. As the Court has determined the use tax on nonmember consumer purchases at the Store are properly
subject to state tax, the State has jurisdiction to assess
a use tax on those purchases. The State does not have
jurisdiction, however, to assess a use tax on nonmember consumer purchases at the Casino’s slots, table
games, food and beverage services, hotel, RV park, live
entertainment events, and gift shop. Consistent with
this Court’s earlier ruling in this case, notwithstanding
this declaration, the Court does not have jurisdiction
to award money damages or injunctive relief against
the Tribe. See Doc. 60 (citing Chemehuevi Indian Tribe

App. 76
v. California State Bd. of Equalization, 492 F.Supp. 55,
58 (N.D.C.A. 1979) (“[E]ven if the court were to decide
in favor of the Board in the Declaratory judgment action brought by the Tribe, it would still not have jurisdiction to adjudicate a counterclaim against the Tribe,
nor to award money damages or injunctive relief
against the Tribe.”). Accordingly,
IT IS ORDERED:
1.

The Tribe’s Motion for Summary Judgment,
Doc. 115, is GRANTED to the extent that:
a.

2.

3.

The State cannot impose a use tax on
nonmember purchases of goods and services as to the Casino’s slots, table games,
food and beverage services, hotel, RV
park, live entertainment events, and gift
shop (claim one).

The Tribe’s Motion for Summary Judgment,
Doc. 115, is DENIED as to the following:
a.

The State can impose a use tax on nonmember purchases of goods and services
at the Store (claims one and three).

b.

The State’s use tax on nonmember purchases of goods and services at the Store
is not discriminatory (claim four)

The Defendants’ Motion for Summary Judgment, Doc. 78, is GRANTED to the extent
that:
a.

The State’s use tax on nonmember purchases of goods and services at the Store
is not preempted by IGRA (claim one).

App. 77

4.

b.

The State’s use tax on nonmember purchases of goods and services at the Store
is not discriminatory (claim four).

c.

The collection and remittance of taxes on
nonmember consumer purchases at the
Store are not preempted by federal law
and do not infringe on tribal sovereignty
(claims two and five).

The Defendants’ Motion for Summary Judgment, Doc. 78, is DENIED as to the following:
a.

The State cannot impose a use tax on
nonmember purchases of goods and services as to the Casino’s slots, table games,
food and beverage services, hotel, RV
park, live entertainment events, and gift
shop (claim one).

b.

The State cannot condition renewal of the
Tribe’s beverage license on the collection
and remittance of a use tax on nonmember consumer purchases (claims six and
eight).

5.

The State does not have jurisdiction to assess
a use tax on nonmember purchases at the
Casino’s slots, table games, food and beverage
services, hotel, RV park, live entertainment
events, and gift shop. However, the State
does have jurisdiction to assess a use tax on
nonmember purchases at the Store (claim
seven).

6.

Each party requested declaratory relief.
Tribal sovereign immunity is jurisdictional in
nature. This Court has no jurisdiction due to

App. 78
tribal sovereign immunity to order the payment to the State from the escrow funds held
pursuant to the Deposit Agreement. The
Tribe, however, agreed in the Deposit Agreement that those funds would be held by the
escrow agent pending the outcome of this lawsuit. Accordingly, the escrow agent may now,
subject to any stay granted pursuant to an
appeal, pay the funds held in escrow to the
Tribe and to the State in their respective
shares under the guidance provided by this
declaratory judgment.

App. 79
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-1271
Flandreau Santee Sioux Tribe,
a federally-recognized Indian Tribe
Appellee
v.
Kristi Noem, Governor of the State of South Dakota
and James Terwilliger, Secretary of the Department
of Revenue of the State of South Dakota
Appellants

Appeal from U.S. District Court for the
District of South Dakota – Sioux Falls
(4:14-cv-04171-LLP)
ORDER
The petitions for rehearing en banc are denied.
The petitions for rehearing by the panel are also denied.
October 24, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App. 80
IN UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
Flandreau Santee Sioux Tribe,
a Federally Recognized Indian Tribe,

Civ. #14-4133

Plaintiff,
-vsAndy Gerlach, Secretary of the
State of South Dakota Department
of Revenue; and Dennis Daugaard,
Governor of the State of South
Dakota,
Defendants.
********************************
DEPOSITION OF
Jonathan B. Taylor
********************************
APPEARANCES: Mr. John Nyhan
Fredericks Peebles & Morgan, LLP
Sacramento, California
-andMs. Rebecca L. Kidder
Fredericks Peebles & Morgan
Rapid City, South Dakota
-andMr. Seth C. Pearman
Flandreau Santee Sioux Tribe
Flandreau, South Dakota
Attorneys for the Plaintiff.

App. 81
APPEARANCES: Ms. Kirsten E. Jasper
Mr. Matthew E. Naasz
Attorney General’s Office
Pierre, South Dakota
-andMs. Stacy R. Hegge
Department of Revenue
Pierre, South Dakota
Attorneys for the Defendants.
*********
INDEX OF EXAMINATIONS
By Ms. Jasper:

Page 3

By Ms. Kidder:

Page 91
*

*

*

[46] Q Thank you. Can you briefly describe what
deadweight loss is as you – as it is mentioned in Roman
Numeral III, Subsection 3., Subsection small a.?
A Yes. So looking at Exhibit 3, there’s a shaded
triangle labeled DWL. And –
Q

And is it an orange-shaded triangle?

A Sure. Yeah. Orange. And that triangle represents what economists call the deadweight loss which
is the, as explained in – in 3, is a reduction in the gains
from trade. It’s an economic inefficiency in the allocation of resources. Goods that buyers would be happy to
buy at prices at which sellers would be willing to sell
don’t [47] get traded because of the intersection – intercession of a tax.

App. 82
Q Is that – is the deadweight loss something that
is possible to quantify?
A It has been.
Q Is it something that is possible to quantify in
a case similar to the one that the facts of this case present?
A Yes.
Q

Did you attempt to quantify –

A I did not.
Q

– in this case? Why is that?

A I didn’t feel it was necessary to reach the conclusions that I reached.
*

*

*

App. 83
UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
============================
FLANDREAU SANTEE SIOUX
TRIBE, a Federally recognized
Indian tribe,

CIVIL NO.
14-4171

Plaintiff,
-vsANDY GERLACH, Secretary of
Revenue of the State of South Dakota;
and DENNIS DAUGAARD, Governor
of the State of South Dakota,
Defendants.
============================
Deposition of Donald Frankenfeld
October 27, 2016
9:08 a.m.
============================
APPEARANCES
JOHN NYHAN, REBECCA L. KIDDER, and
SETH PEARMAN, FREDERICKS,
PEEBLES & MORGAN, LLC,
Attorneys at Law, 2020 L Street, Suite 250,
Sacramento, California 95811,
appearing on behalf of the Plaintiff;

App. 84
STACY R. HEGGE,
STATE OF SOUTH DAKOTA REVENUE
DEPARTMENT, Attorney at Law,
445 East Capitol Avenue,
Pierre, South Dakota 57501,
appearing as co-counsel on behalf of the
Defendants;
MATTHEW E. NAASZ and KIRSTEN E.
JASPER, SOUTH DAKOTA ATTORNEY
GENERAL’S OFFICE,
Attorneys at Law, 1302 East Highway 14,
Pierre, South Dakota 57501,
appearing as co-counsel on behalf of the
Defendants.
[2] INDEX
EXAMINATION

PAGE

By Mr. Nyhan
By Ms. Jasper

4
99
*

*

*

[99] BY MS. JASPER:
Q. Mr. Frankenfeld – for the record, this is
Kirsten Jasper representing both the Defendants here
in this case.
With regard to your two estimated numbers for potential economic impact, the – we’ll start with the low
end, the $33,531 estimate. Was that number based on
presuming all payees of the sales tax for the Tribe were
nonmembers?

App. 85
A. Yeah. Implicitly it made that assumption,
which I recognize was not – at the time I made it, I
knew it wasn’t precisely accurate.
Q. And you’re aware that not all patrons of the
casino facility are nonmembers?
A.

I am.

Q. Does that also then hold true to the $268,000
what I’ll refer to as ceiling of the potential economic
impact to the Tribe?
A.

Yes.

Q. That number implied that all patrons were
nonmembers?
[100] A.

Correct.

Q. And given that both numbers would actually
more likely be lower than the numbers that you estimated; is that correct?
A. They would be lower for the reason that I assumed a population of 100 percent nontribal members.
And since we know that it’s actually less than that –
and I think the recent schedules I received have some
proportion estimates, but we know it’s less than that
so the conclusions I’ve drawn would at least theoretically be modified to reflect that lower number.
MS. JASPER:
any further questions.
*

Okay. Thank you. I don’t have
*

*

App. 86
EXCERPTS FROM STATE OF SOUTH DAKOTA/
FLANDREAU SANTEE SIOUX TRIBE GAMING
COMPACT [DOCKET 32, EXHIBIT C,
CIV NO. 14-4171 D.Ct.S.D.]
GAMING COMPACT BETWEEN THE
FLANDREAU SANTEE SIOUX TRIBE
AND THE STATE OF SOUTH DAKOTA
---------------------------------♦---------------------------------

WHEREAS, the State has, through constitutional provisions and legislative acts, authorized limited card
games, slot machines, craps, roulette and keno activities to be conducted in Deadwood, South Dakota; and
---------------------------------♦---------------------------------

1.

DECLARATION OF POLICY

In the spirit of cooperation, the Tribe and the State
hereby set forth a joint effort to implement the terms
of the Indian Gaming Regulatory Act. . . . The Tribe
and the State recognize that the need to ensure the
health, safety, and welfare of the public, and the integrity of the gaming industry in the State of South Dakota is protected. [Emphasis Added]
---------------------------------♦---------------------------------

4.

OPERATION OF GAMING

. . . . All equipment used by the tribe, including electrical or mechanical tote board devices, in conducting
pari-mutuel wagering shall be of the type and meet the
standards for size and information display set forth by
the South Dakota Commission on Gaming. The South

App. 87
Dakota Commission on Gaming agents shall be authorized to inspect (not to include audits) the equipment
used by the tribe in conducting pari-mutuel wagering
to determine that it is in accordance with the laws and
rules adopted in this Compact. . . . The Tribal Gaming
Commission and the South Dakota Commission on
Gaming shall be notified of all such inspections and the
results of those inspections. If the results of any such
inspection reveal that the equipment fails to meet applicable standards, the Tribe will not use such equipment until the equipment meets applicable standards.
---------------------------------♦---------------------------------

5. DISCIPLINARY ACTION OF MISCONDUCT
OF LICENSEES
Any suspected violation of any law or rule, adopted in
the State-Tribal Compact, shall be reported to the
Tribal Gaming Commission and the South Dakota
Commission on Gaming.
---------------------------------♦---------------------------------

6.

LAW ENFORCEMENT

6.1 All criminal matters arising from or related to
Class III gaming shall be dealt with according to applicable Tribal, State, or Federal law. Nothing in this
Compact shall deprive the Courts of the Tribe, the
United States, or the State of South Dakota of such
criminal jurisdiction as each may enjoy under applicable law.

App. 88
6.2 The Tribe agrees to adopt Class III gaming ordinances and regulations to regulate gaming on the
Flandreau Santee Sioux Reservation which ordinances
and regulations are at least as stringent as those statutes and administrative rules adopted by the State
of South Dakota to regulate gambling in Deadwood,
South Dakota. The Tribe shall furnish the State with
copies of such ordinances and regulations and shall advise the State of any amendment, revision or rescission
of the gaming regulations. . . . The Tribe agrees that in
no event shall it amend, revise or rescind any gaming
regulations which would result in the tribal regulations being less stringent that the statutes and rules
adopted by the State of South Dakota.
---------------------------------♦---------------------------------

9. REGULATORY STANDARDS FOR GAMING ON
THE FLANDREAU SANTEE SIOUX RESERVATION
In recognition of the valid public policy interests of the
state, which is similarly appreciated as desirable by
the Tribe, the following regulatory standards are established for gaming operated and played within the
federally-recognized boundaries of the Reservation.
---------------------------------♦---------------------------------

9.3 TECHNICAL STANDARDS FOR GAMING DEVICES.
All gaming machines operated and played at the location specified in Section 9.5 within the Flandreau Santee Sioux Reservation pursuant to this compact shall
meet or exceed the hardware and software specifications

App. 89
set forth by the South Dakota Commission on Gaming
and SDCL § 42-7B-43 prior to play. Gaming machine
prototypes will be tested and approved prior to play by
the State according to State procedures and by the
Tribe according to tribal procedures.
9.4 APPROVAL OF GAMING DEVICES. No gaming
devices shall be operated at the location specified in
Section 9.5 on the Flandreau Santee Sioux Reservation
unless:
1.

The gaming device is purchased, leased or
acquired from a manufacturer or distributor
licensed to sell, lease or distribute gaming devices by the State, pursuant to SDCL Ch. 427B et seq. and ARSD § 20:18 et seq. and

2.

If the gaming device is a slot machine, keno
number selection device, or roulette wheel the
gaming device or a prototype thereof, has been
tested approved and certified by a gaming test
laboratory as meeting the requirements and
standards of this Compact. For purposes of
this Compact, a gaming test laboratory shall
be a laboratory agreed to and designated in
writing by the South Dakota Commission on
Gaming and the Tribal Gaming Commission.
---------------------------------♦---------------------------------

9.6 INSPECTION PROCEDURE. South Dakota Commission on Gaming agents shall be authorized to inspect
(not to include audits) the tribal gaming establishment
in accordance with the laws and rules adopted in the

App. 90
Compact. . . . These inspections are specifically authorized to be unannounced and may be in the nature of an
undercover inspection. . . .
9.7 REMEDIES FOR NON-COMPLYING GAMING
DEVICES. Upon inspection pursuant to paragraph
9.6, the State may designate gaming devices which it
believes do not comply with state or tribal gaming
laws. The machine shall be immediately removed from
play.

App. 91
25 U.S. Code § 2701. Findings
The Congress finds that—
(1) numerous Indian tribes have become engaged in
or have licensed gaming activities on Indian lands
as a means of generating tribal governmental revenue;
(2) Federal courts have held that section 81 of this title requires Secretarial review of management
contracts dealing with Indian gaming, but does
not provide standards for approval of such contracts;
(3) existing Federal law does not provide clear standards or regulations for the conduct of gaming on
Indian lands;
(4) a principal goal of Federal Indian policy is to promote tribal economic development, tribal self-sufficiency, and strong tribal government; and
(5) Indian tribes have the exclusive right to regulate
gaming activity on Indian lands if the gaming activity is not specifically prohibited by Federal law
and is conducted within a State which does not, as
a matter of criminal law and public policy, prohibit
such gaming activity.
(Pub. L. 100–497, § 2, Oct. 17, 1988, 102 Stat. 2467.)

App. 92
25 U.S. Code § 2702. Declaration of policy
The purpose of this chapter is—
(1) to provide a statutory basis for the operation of
gaming by Indian tribes as a means of promoting
tribal economic development, self-sufficiency, and
strong tribal governments;
(2) to provide a statutory basis for the regulation of
gaming by an Indian tribe adequate to shield it
from organized crime and other corrupting influences, to ensure that the Indian tribe is the primary beneficiary of the gaming operation, and to
assure that gaming is conducted fairly and honestly by both the operator and players; and
(3) to declare that the establishment of independent
Federal regulatory authority for gaming on Indian
lands, the establishment of Federal standards for
gaming on Indian lands, and the establishment of
a National Indian Gaming Commission are necessary to meet congressional concerns regarding
gaming and to protect such gaming as a means of
generating tribal revenue.
(Pub. L. 100–497, § 3, Oct. 17, 1988, 102 Stat. 2467.)

25 U.S. Code § 2710(d). Tribal gaming ordinances
(d) Class III gaming activities; authorization; revocation; Tribal-State compact
(1) Class III gaming activities shall be lawful on Indian lands only if such activities are—

App. 93
(A) authorized by an ordinance or resolution
that—
(i) is adopted by the governing body of the
Indian tribe having jurisdiction over such
lands,
(ii) meets the requirements of subsection (b),
and
(iii)

is approved by the Chairman,

(B) located in a State that permits such gaming
for any purpose by any person, organization, or entity, and
(C) conducted in conformance with a TribalState compact entered into by the Indian tribe and
the State under paragraph (3) that is in effect.
(2)(A) If any Indian tribe proposes to engage in, or to
authorize any person or entity to engage in, a class III
gaming activity on Indian lands of the Indian tribe, the
governing body of the Indian tribe shall adopt and submit to the Chairman an ordinance or resolution that
meets the requirements of subsection (b).
(B) The Chairman shall approve any ordinance
or resolution described in subparagraph (A), unless the Chairman specifically determines that—
(i) the ordinance or resolution was not adopted
in compliance with the governing documents
of the Indian tribe, or
(ii) the tribal governing body was significantly and unduly influenced in the adoption

App. 94
of such ordinance or resolution by any person
identified in section 2711(e)(1)(D) of this title.
Upon the approval of such an ordinance or resolution,
the Chairman shall publish in the Federal Register
such ordinance or resolution and the order of approval.
(C) Effective with the publication under subparagraph (B) of an ordinance or resolution adopted by the
governing body of an Indian tribe that has been approved by the Chairman under subparagraph (B), class
III gaming activity on the Indian lands of the Indian
tribe shall be fully subject to the terms and conditions
of the Tribal-State compact entered into under paragraph (3) by the Indian tribe that is in effect.
(D)(i) The governing body of an Indian tribe, in its
sole discretion and without the approval of the Chairman, may adopt an ordinance or resolution revoking
any prior ordinance or resolution that authorized class
III gaming on the Indian lands of the Indian tribe.
Such revocation shall render class III gaming illegal
on the Indian lands of such Indian tribe.
(ii) The Indian tribe shall submit any revocation
ordinance or resolution described in clause (i) to
the Chairman. The Chairman shall publish such
ordinance or resolution in the Federal Register
and the revocation provided by such ordinance or
resolution shall take effect on the date of such publication.
(iii) Notwithstanding any other provision of this
subsection—

App. 95
(I) any person or entity operating a class III
gaming activity pursuant to this paragraph
on the date on which an ordinance or resolution described in clause (i) that revokes authorization for such class III gaming activity
is published in the Federal Register may, during the 1-year period beginning on the date on
which such revocation ordinance or resolution
is published under clause (ii), continue to operate such activity in conformance with the
Tribal-State compact entered into under paragraph (3) that is in effect, and
(II) any civil action that arises before, and
any crime that is committed before, the close
of such 1-year period shall not be affected by
such revocation ordinance or resolution.
(3)(A) Any Indian tribe having jurisdiction over the
Indian lands upon which a class III gaming activity is
being conducted, or is to be conducted, shall request
the State in which such lands are located to enter into
negotiations for the purpose of entering into a TribalState compact governing the conduct of gaming activities. Upon receiving such a request, the State shall
negotiate with the Indian tribe in good faith to enter
into such a compact.
(B) Any State and any Indian tribe may enter
into a Tribal-State compact governing gaming activities on the Indian lands of the Indian tribe, but
such compact shall take effect only when notice of
approval by the Secretary of such compact has
been published by the Secretary in the Federal
Register.

App. 96
(C) Any Tribal-State compact negotiated under
subparagraph (A) may include provisions relating
to—
(i) the application of the criminal and civil
laws and regulations of the Indian tribe or the
State that are directly related to, and necessary for, the licensing and regulation of such
activity;
(ii) the allocation of criminal and civil jurisdiction between the State and the Indian tribe
necessary for the enforcement of such laws
and regulations;
(iii) the assessment by the State of such activities in such amounts as are necessary to
defray the costs of regulating such activity;
(iv) taxation by the Indian tribe of such activity in amounts comparable to amounts assessed by the State for comparable activities;
(v)

remedies for breach of contract;

(vi) standards for the operation of such activity and maintenance of the gaming facility,
including licensing; and
(vii) any other subjects that are directly related to the operation of gaming activities.
(4) Except for any assessments that may be agreed to
under paragraph (3)(C)(iii) of this subsection, nothing
in this section shall be interpreted as conferring upon
a State or any of its political subdivisions authority to
impose any tax, fee, charge, or other assessment upon
an Indian tribe or upon any other person or entity

App. 97
authorized by an Indian tribe to engage in a class III
activity. No State may refuse to enter into the negotiations described in paragraph (3)(A) based upon the
lack of authority in such State, or its political subdivisions, to impose such a tax, fee, charge, or other assessment.
(5) Nothing in this subsection shall impair the right
of an Indian tribe to regulate class III gaming on its
Indian lands concurrently with the State, except to the
extent that such regulation is inconsistent with, or less
stringent than, the State laws and regulations made
applicable by any Tribal-State compact entered into by
the Indian tribe under paragraph (3) that is in effect.
(6) The provisions of section 1175 of title 15 shall not
apply to any gaming conducted under a Tribal-State
compact that—
(A) is entered into under paragraph (3) by a
State in which gambling devices are legal, and
(B)

is in effect.

(7)(A) The United States district courts shall have jurisdiction over—
(i) any cause of action initiated by an Indian
tribe arising from the failure of a State to
enter into negotiations with the Indian tribe
for the purpose of entering into a Tribal-State
compact under paragraph (3) or to conduct
such negotiations in good faith,
(ii) any cause of action initiated by a State
or Indian tribe to enjoin a class III gaming

App. 98
activity located on Indian lands and conducted in violation of any Tribal-State compact entered into under paragraph (3) that is
in effect, and
(iii) any cause of action initiated by the Secretary to enforce the procedures prescribed
under subparagraph (B)(vii).
(B)(i) An Indian tribe may initiate a cause of action described in subparagraph (A)(i) only after
the close of the 180-day period beginning on the
date on which the Indian tribe requested the State
to enter into negotiations under paragraph (3)(A).
(ii) In any action described in subparagraph
(A)(i), upon the introduction of evidence by an Indian tribe that—
(I) a Tribal-State compact has not been entered into under paragraph (3), and
(II) the State did not respond to the request
of the Indian tribe to negotiate such a compact
or did not respond to such request in good
faith,
the burden of proof shall be upon the State to
prove that the State has negotiated with the Indian tribe in good faith to conclude a Tribal-State
compact governing the conduct of gaming activities.
(iii) If, in any action described in subparagraph
(A)(i), the court finds that the State has failed to
negotiate in good faith with the Indian tribe to
conclude a Tribal-State compact governing the
conduct of gaming activities, the court shall order

App. 99
the State and the Indian Tribe [2] to conclude such
a compact within a 60-day period. In determining
in such an action whether a State has negotiated
in good faith, the court—
(I) may take into account the public interest,
public safety, criminality, financial integrity,
and adverse economic impacts on existing
gaming activities, and
(II) shall consider any demand by the State
for direct taxation of the Indian tribe or of any
Indian lands as evidence that the State has
not negotiated in good faith.
(iv) If a State and an Indian tribe fail to conclude
a Tribal-State compact governing the conduct of
gaming activities on the Indian lands subject to
the jurisdiction of such Indian tribe within the 60day period provided in the order of a court issued
under clause (iii), the Indian tribe and the State
shall each submit to a mediator appointed by the
court a proposed compact that represents their
last best offer for a compact. The mediator shall
select from the two proposed compacts the one
which best comports with the terms of this chapter
and any other applicable Federal law and with the
findings and order of the court.
(v) The mediator appointed by the court under
clause (iv) shall submit to the State and the Indian
tribe the compact selected by the mediator under
clause (iv).
(vi) If a State consents to a proposed compact
during the 60-day period beginning on the date on
which the proposed compact is submitted by the

App. 100
mediator to the State under clause (v), the proposed compact shall be treated as a Tribal-State
compact entered into under paragraph (3).
(vii) If the State does not consent during the 60day period described in clause (vi) to a proposed
compact submitted by a mediator under clause (v),
the mediator shall notify the Secretary and the
Secretary shall prescribe, in consultation with the
Indian tribe, procedures—
(I) which are consistent with the proposed
compact selected by the mediator under clause
(iv), the provisions of this chapter, and the relevant provisions of the laws of the State, and
(II) under which class III gaming may be
conducted on the Indian lands over which the
Indian tribe has jurisdiction.
(8)(A) The Secretary is authorized to approve any
Tribal-State compact entered into between an Indian
tribe and a State governing gaming on Indian lands of
such Indian tribe.
(B) The Secretary may disapprove a compact described in subparagraph (A) only if such compact
violates—
(i)

any provision of this chapter,

(ii) any other provision of Federal law that
does not relate to jurisdiction over gaming on
Indian lands, or
(iii) the trust obligations of the United States
to Indians.

App. 101
(C) If the Secretary does not approve or disapprove a compact described in subparagraph (A) before the date that is 45 days after the date on
which the compact is submitted to the Secretary
for approval, the compact shall be considered to
have been approved by the Secretary, but only to
the extent the compact is consistent with the provisions of this chapter.
(D) The Secretary shall publish in the Federal
Register notice of any Tribal-State compact that is
approved, or considered to have been approved,
under this paragraph.
(9) An Indian tribe may enter into a management
contract for the operation of a class III gaming activity
if such contract has been submitted to, and approved
by, the Chairman. The Chairman’s review and approval
of such contract shall be governed by the provisions of
subsections (b), (c), (d), (f ), (g), and (h) of section 2711
of this title.
(Pub. L. 100–497, § 11, Oct. 17, 1988, 102 Stat. 2472.)

